<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        THURSDAY, MARCH 16, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Senator Conrad Burns (chairman) 
presiding.
    Present: Senators Burns, Cochran, Allard, and Dorgan.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF MARK E. REY, UNDER SECRETARY FOR NATURAL 
            RESOURCES AND ENVIRONMENT
ACCOMPANIED BY:
        DALE BOSWORTH, CHIEF
        LENISE LAGO, ACTING BUDGET DIRECTOR


               OPENING STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. We will call the committee to order, and 
thank you, and good morning. I'm very pleased the Forest 
Service Chief, Dale Bosworth--nice to have you here with us 
this morning and I hope everything is all right over in your 
camp and also, the Under Secretary for Natural Resources and 
Environment.


                           BUDGET REDUCTIONS


    I thought you were for the environment, Mark. But it's nice 
to have you here this morning and of course, you've been before 
this subcommittee many, many times.
    We all know there's a little belt tightening around here in 
trying especially in the non-defense and non-homeland security 
programs for fiscal year 2007. In fact we'll be debating this 
budget resolution this week and I would imagine that the debate 
continues on the direction of the overall amount of 
discretionary spending that this committee will have to spend. 
The President's budget request for the Forest Service is $4.096 
billion in non-emergency discretionary appropriations.
    This represents a 2.5 percent cut, compared to 2006 of $4.2 
billion for non-emergency funds. I know that in this budget 
climate, tough choices have to be made about some of the 
proposed program cuts in the Forest Service really concern me.
    For example, funding for maintaining road systems has been 
cut by $39 million, an 18 percent reduction. This is hard to 
understand given the Forest Service own estimates that they 
are--have more than $4.5 billion backlogged in maintenance work 
on its roads.
    If we don't maintain those roads, then people ultimately 
can't access the forest whether it's for recreation, 
firefighting, or forest management. I think that is very 
shortsighted.
    Funding for State fire assistance has also been decreased 
over $22 million. That's a 25 percent reduction. This will 
reduce by over 5,000, the number of rural fire departments that 
receive grants and technical assistance. These fire departments 
are often the first to respond to wildland fires and they 
provide a vital help to the Forest Service and the Department 
of the Interior.
    Another concern is $29 million cut in forest health 
programs in State and private forestry. I remember we had great 
debates, at one time, on the use of this money and how 
effective it is. In my State we have an enormous problem with 
bark beetles and the forest health funds for that program have 
been cut in half.
    The dead trees that result from beetle kill add directly to 
the already excessive fuel loads and greatly increase the fire 
risk. I would draw your attention to the forest, especially in 
Montana, where I get to look at those red trees every time I 
drive down the road and I see nothing--nothing happening in 
order to take this on. Because I'll tell you, these bark 
beetles coming through a 7- or an 8-year drought, we had trees 
that were stressed and they become more vulnerable to that 
beetle than any other tree in the forest. We've done hardly 
anything to take stressed trees and infected trees out of the 
forest to deal with this problem and that's the only way we 
have to dealing with it. I think that's the only thing I've 
been told, is the removal of those trees.


                            BUDGET INCREASES


    On the other side of the ledger, a few programs receive 
significant increases in the proposed budget request. These 
include the timber program, $32.5 million, Forest Legacy, 
that's good. Hazardous fuels is $10 million. That's good and I 
think you would have to put in that definition, these beetle 
kills. They're definitely a part of that problem.
    Wildfire suppression, we have an increase of $56 million 
and we're all interested in hearing from both of you how you 
formulated the 2007 budget and how you made the difficult 
decisions allocating funding between the various programs.


                        SECURE RURAL SCHOOLS ACT


    Finally another issue that concerns me, is the 
administration's proposal on reauthorization of the Secure 
Rural Schools Act. This proposal would sell over 300,000 acres 
of our National Forest System lands, including 14,000 acres in 
Montana, to pay for continuing payments to counties for another 
5 years.
    Now as I've traveled around my State and talked to various 
groups and individuals, county commissioners, there is simply 
no support for that proposal in this form. We need to come up 
with a better way to find reauthorization of the Secure Rural 
Schools Act. I think the national taxpayer has to be aware of 
this because it impacts communities that rely heavily on forest 
and forest products.
    So I thank you for joining me today. We're going to talk a 
little bit about grazing permits and be ready for that. So make 
sure you get out your reference material. I want to see how you 
justify that and so, I look forward to hearing from both of 
you, Dale and Mark, in this hearing today.
    Now, my good friend from North Dakota who has had a great 
ski season this year. They've had quite a lot of snow. Thank 
you for joining us.


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. Mr. Chairman, thank you very much. I agree 
with much of what you've had to say. This appropriations 
request really shorts needed funding in many, many areas. 
Access to public lands, fewer roads and trails to provide that 
access, fewer resources for State and local governments, less 
funding for recreation and resource development.


                             FISCAL POLICY


    I understand Secretary Rey, Mr. Bosworth, and Ms. Lago will 
be here to support the administration's budget, that is your 
job. If we were to ask you if you agree or disagree, you must 
agree because you are an appointee and we understand all that. 
But I think it's also the case that we have a fiscal policy 
that doesn't add up. It just doesn't add up.
    The reason that you're coming in, in fact we--last year, 
cut a half a billion dollars below our previous year's spending 
in this subcommittee. Half a billion dollars, not reducing the 
rate of growth, but we cut a half a billion dollars. The 
President's budget cuts another one-half billion dollars below 
that for the next year.
    My point is, the fiscal policy doesn't add up and the 
result is a lot of good things are going to pay the cost of 
that and I regret that. We have to try to find a better set of 
priorities and we need to be doing it in a way that is 
thoughtful.
    I did not bring a leafy spurge plant, you're well familiar 
with it. In fact, you brought pictures to show me I understand, 
that you're actually taking care of some of that leafy spurge. 
Not all of it, we still have a lot of work to do. But I 
appreciate your attention to it. Mr. Rey was in North Dakota 
recently, met with some ranchers and he actually talked about 
leafy spurge just a bit.
    You know there are many things, I won't go over them all, 
but the President is proposing to sell about $800 million in 
national forest lands in order to finance county payments for 
roads and schools. The reason we're forced into all of these 
abstinance choices, is we have a fiscal policy that doesn't 
add.
    We are spending money we don't have in areas now. I think 
we're going to be at $440 billion for Iraq and Afghanistan and 
now Katrina, and none of it's paid for. Nobody's ever asked to 
pay for any of it, really.
    So we just flounder along and at some point, somebody's 
going to say you know, this is unsustainable, it's a fiscal 
policy that doesn't work. But in its details in this 
subcommittee, you see the consequences of that, and it is cuts 
in areas that will have real impact, and are not cuts that make 
sense in the long term.
    Having said all that, I appreciate once again, you're being 
here and there are many areas to question and I have another 
Appropriations subcommittee just around the corner that I'm 
going to have to ask some questions of, about the train 
accident in Minot with respect to the anhydrous ammonia, some 
years ago. I've got to go ask the FRA some questions about that 
this morning.
    So I won't be able to hear all of your testimony, but I 
want to thank all three of you for being here this morning and 
you need to work with us because we need to find ways to make 
sense of all of this in an environment in which the fiscal 
policy doesn't add up. Mr. Chairman, thank you.
    Senator Burns. You are welcome and thank you for your 
statement, Senator Dorgan. And that is the reason they hire us 
around here, is to kind of protect these areas. So we will do 
that and try to find ways to pay for it.
    Mr. Secretary, nice to see you this morning and we look 
forward to your statement.
    Mr. Rey. With your sufferance, the Chief is actually going 
to start.
    Senator Burns. Chief, it's good to see you. I think 
everything is going well with you.


                   SUMMARY STATEMENT OF DALE BOSWORTH


    Mr. Bosworth. Everything is going just fine. Mr. Chairman 
and Mr. Dorgan, I do appreciate the opportunity to be here 
today and talk about the President's fiscal year 2007 budget 
for the Forest Service.
    As was stated, the 2007 President's budget for the Forest 
Service totals about $4.1 billion in discretionary funding. 
That's a $104 million decrease from fiscal year 2006.


                     FOREST SERVICE ACCOMPLISHMENTS


    What I would like to do is begin by discussing some of our 
successes from the past year and then talk about our strategy 
for accomplishing our agency's objectives.
    We had some significant accomplishments last year and a lot 
of our accomplishments, I think, are things that are measurable 
through performance measures and we're able to quantify those. 
Some of the priority areas where we either met or we exceeded 
our target included things like hazardous fuel treatment, 
noxious weed treatment, stream and lake restoration 
enhancement, timber volume that was sold, terrestrial habitat 
enhancement, decisions on range allotments, and number of miles 
of trails that were maintained.
    We accomplished much of that important work while also 
opening a service center in Albuquerque, New Mexico, which, in 
the end, will save dollars that will eventually go to the 
ground.
    I'm particularly proud of our ability to respond to 
unplanned events and in particular, the catastrophic hurricanes 
that hit the gulf States last year--hurricanes Katrina and Rita 
had a huge impact on the Forest Service, as well as a number of 
other people.
    Those strong winds affected something like 6 million acres 
of forest land in five southern States including over 300,000 
acres of national forest land. Potential losses amounted to 15 
to 19 billion board feet of timber and about 90 percent of that 
was on private land.
    Since the hurricanes, the Forest Service has sold 256 
million board feet of timber that had been damaged during the 
hurricanes. We've opened about 2,000 miles of road, and are in 
the process of also repairing some of that road.
    In support of hurricane Katrina response in the days after 
the hurricane, the interagency teams managed all agency radio, 
phone, and data communications; coordinated the receiving and 
distribution of 1,000 truckloads of supplies; provided evacuees 
with food, clothing, and shelter; and supported emergency 
medical operations at the New Orleans airport.
    At the base camp for example, four crews moved 2,400 
patients in a 3-day period to and from the Air Force triage 
hospital in New Orleans Airport. An incident command team 
managed the staging area in Mississippi, that was one of the 
largest air operations in the storm-affected area. Our crews 
unloaded, and refueled, and stored 10 to 12 747 plane loads of 
commodities every day.
    In one incident, the command team shipped over 2.9 million 
meals, 5.6 million gallons of water, and 39 million pounds of 
ice. That's enough drinking water for 11 million people for 1 
day.


                      FISCAL YEAR 2007 PRIORITIES


    I'd like to move on to talk about the priorities for 2007. 
The budget continues to work with the Healthy Forests 
Initiative and the Healthy Forests Restoration Act Authorities 
in restoring forest health. The Forest Service will treat 3.2 
million acres in fiscal year 2007 and the majority of that will 
be in the wildland-urban interface.
    We've been increasing use of our stewardship contracting 
authorities. We have 209 projects now underway and we expect to 
have 80 more contracts and agreements in fiscal year 2007.
    A key theme from the White House Conference on Cooperative 
Conservation in the Forest Service's Centennial Congress is 
that our future in the Forest Service is going to be through 
collaboration and not through regulation. We're going to 
continue to move that way.
    Our new planning processes, our new travel management rule, 
as well as the resource advisory committees that are 
established through the Recreation Enhancement Act, are all 
going to be ways of leveraging public involvement to improve 
Forest Service efficiency and effectiveness.
    Our budget reflects our continued implementation of our 
vision as the center of excellence, reducing our indirect cost 
by about $200 million by the end of fiscal year 2007. The 
Facilities Realignment and Enhancement Act allows us to 
streamline facility holdings and still produce additional funds 
for our mission critical facility maintenance.
    Our Business Operations Transformation Program is estimated 
to save $241 million by fiscal year 2011, while also improving 
the transparency and accountability of our systems.


                           PREPARED STATEMENT


    In conclusion, our 2007 budget responds to the national 
need for deficit reductions while preparing for new and a much 
more collaborative era in the future for natural resource 
management.
    Again, I appreciate the opportunity to be here and I look 
forward to working with you to implement our 2007 program. I'd 
be happy to answer any questions.
    [The statement follows:]

                  Prepared Statement of Dale Bosworth

                                OVERVIEW

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to discuss the President's fiscal year 2007 Budget for the 
Forest Service. I am pleased to be here with you today.
    The fiscal year 2007 President's budget for the Forest Service 
totals $4.10 billion in discretionary funding, which is a $104 million 
decrease in funding from fiscal year 2006. The budget advances the top 
priorities of the agency in order to sustain the health of the Nation's 
forests and grasslands. I will begin today by sharing some of the 
Forest Service's successes from the past year; these successes 
demonstrate our capabilities to accomplish the challenges ahead. Then, 
I will discuss our strategy for accomplishing agency objectives at a 
time when our Nation also needs to exercise fiscal discipline to 
provide the critical resources needed for our Nation's highest 
priorities: fighting the war on terrorism, strengthening our homeland 
defenses and sustaining the momentum of our economic recovery.

                        FOREST SERVICE SUCCESSES

    In 2005, the Forest Service achieved its priorities and 
demonstrated that it continues to be an agency of great value to the 
American people. The Forest Service exceeded its goals to restore the 
health of our forests and protect critical resources from catastrophic 
wildfires. Working collaboratively with the Department of the Interior 
(DOI), the Forest Service controlled 99 percent of all unwanted and 
unplanned fires during initial attack.
    The Forest Service and the Department of the Interior last year 
treated hazardous fuels on more than 2.9 million acres of land, and 
reduced hazardous fuels on an additional 1.4 million acres through 
other land management actions. Federal agencies plan to treat 2.9 
million more acres in 2006, and accomplish hazardous fuels reduction on 
an additional 1.6 million acres through landscape restoration 
activities. An additional 4.6 million acres are planned for 2007, which 
includes 3.0 million acres of hazardous fuels treatments and 1.6 
million acres of landscape restoration. By the end of fiscal year 2007, 
federal agencies will have treated hazardous fuels on more than 21.5 
million acres of our Nation's forests and wooded rangelands since the 
beginning of fiscal year 2001, and will have restored an additional 5.1 
million acres.
    I am especially proud this year of the strength and resourcefulness 
that Forest Service employees demonstrated during their involvement in 
the relief efforts following the many hurricanes of 2005. In the first 
four weeks after Katrina's landfall, Forest Service employees provided 
support to over 600,000 people affected by Katrina, distributing over 
2.7 million meals, 4 million gallons of water and 40 million pounds of 
ice. During peak response to Hurricanes Katrina and Rita, the Forest 
Service had 5,500 employees working in the affected region, and total 
Forest Service efforts represented over 250,000 personnel days. Forest 
Service employees provided a variety of critical services, including 
managing evacuation centers and base camps, providing logistical 
support, clearing roadways, and leading forest restoration efforts on 
both the private and public forests damaged by the storms.
    These efforts demonstrated the exceptional work ethic and ``can-
do'' attitude of Forest Service employees. At the Levi Strauss shelter 
in San Antonio, Red Cross worker Bill Martin reported that ``[Forest 
Service workers] do everything here. . . . They aren't afraid of 
getting their hands dirty.'' At this shelter, Forest Service employees 
became known as the ``green pants.'' The nickname arose from evacuees 
who quickly learned that if they needed something done quickly or a 
question answered right away, they could get it from the men and women 
wearing the green pants of the Forest Service uniform. The commitment 
to service that Forest Service employees demonstrated during the 
hurricane relief efforts is the same commitment that sustains the 
health of our Nation's forests and grasslands.
    The National Forest System continues to provide benefits to the 
American public, including fresh water, flood regulation, carbon 
sequestration and recreation. 60 million people benefit from clean 
water provided by national forests and grasslands, and in 2005 the 
American people made over 200 million visits to the national forests 
and grasslands. These statistics underscore the importance of the 
National Forest System to the environmental infrastructure and natural 
heritage of the United States.
    The Forest Service accomplished all these tasks while 
simultaneously improving its organizational and financial management. 
In 2005 the Forest Service began its Business Operations Transformation 
Program, which will advance the efficiency of its technology, budget, 
finance and human resources operations, and is expected to save the 
agency $241 million in administrative operation costs over the next 
five years. As part of this effort, the Albuquerque Service Center 
became operational in 2005, and will create a centralized location for 
human resources and financial management operations.
    The Forest Service also achieved its fourth unqualified (``clean'') 
audit opinion in a row for fiscal year 2005, continuing the agency's 
efforts to improve financial performance. Building upon these 
successes, the Forest Service will use improved financial information 
to drive results in key areas.

             FOREST SERVICE PRIORITIES FOR FISCAL YEAR 2007

    In fiscal year 2007 the Forest Service will continue its strategic 
focus on the following goals: restoring fire-adapted forests; providing 
sustainable recreation opportunities for the American people; improving 
the health of our watersheds; and helping our Nation meet its energy 
needs.
    In addition to these long-term strategic goals, the President's 
Budget provides increased support to Forest Service programs that 
improve forest health conditions, protect critical resources from 
catastrophic wildland fire, and help prevent the loss of open space. 
The President's Budget demonstrates that the Forest Service can use 
collaborative approaches and operate with renewed efficiency and 
accountability in order to reduce costs while accomplishing its 
mission. The Forest Service will achieve this by: (1) dealing 
strategically with threats to forest health; (2) expanding 
collaborative efforts; (3) increasing the efficiency of Forest Service 
programs; and (4) improving organizational and financial management. 
Through these four strategies, the Forest Service will build on its 
past successes and advance its priorities for fiscal year 2007.

            A STRATEGIC APPROACH TO RESTORING FOREST HEALTH

    The fiscal year 2007 Budget continues the work of the Forest 
Service under the authorities of the President's Healthy Forests 
Initiative and the Healthy Forests Restoration Act (HFRA). These 
authorities have removed administrative process delays and expedited 
critical restoration projects so that the Forest Service can more 
effectively restore national forests and grasslands to a more fire 
adaptive environment.
    In 2005, the Forest Service treated 2.72 million acres of land to 
reduce hazardous fuels, with over 60 percent of those acres in the 
wildland-urban interface. The fiscal year 2007 budget proposes $292 
million for the treatment of hazardous fuels. Combined with other 
programs; the agency will treat as many as 3.2 million acres, with a 
majority of acres treated in the wildland-urban interface. Recent court 
decisions affecting our use of categorical exclusions to accomplish 
this work will have an effect on our ability to rapidly and efficiently 
treat these acres that are in need of fuels reduction. The Forest 
Service is also better integrating its hazardous fuels treatments with 
other vegetation management activities. The result is an additional 1.1 
million acres of hazardous fuels treated in 2005 as secondary benefits 
to other vegetation management activities. Hazardous fuels treatments, 
in turn, often have secondary benefits such as wildlife habitat 
improvement or watershed restoration.
    Another important tool for improving forest health is stewardship 
projects. These projects allow forest managers to more efficiently 
manage efforts to restore forest health through the use of one contract 
document authorizing the disposal of national forest system timber 
incidental to and in exchange for services to be performed on national 
forest system land. The President's budget will allow the Forest 
Service to award approximately 100,000 acres of stewardship projects in 
fiscal year 2007, providing services such as noxious weed treatment, 
lake restoration, and harvesting biomass for energy use.
    In fiscal year 2007 the Forest Service will continue to assist 
communities adjacent to national forest land in the development of 
Community Wildfire Protection Plans (CWPPs). CWPPs enable communities 
to establish a localized definition of the wildland-urban interface in 
their area, and high-risk areas identified in a CWPP receive funding 
preference from the Forest Service. As of December 2005, at least 450 
CWPPs had been completed nationwide, covering at least 2,500 
communities at risk from wildfire
    In 2005, fires burned 8.6 million acres on Federal lands; the fire 
season was characterized by a continuing drought and dry fuel 
conditions. Climate forecasts and estimates of fuel loads on our 
Nation's forests highlight the continued need for highly trained and 
efficient fire prevention and fire suppression programs. In order to 
maintain these programs, the President's Budget proposes a $56 million 
increase above the fiscal year 2006 enacted amount for wildland fire 
suppression. This funding request equals the most recent 10-year 
average for suppression costs, which are on an upward trend.
    In 2005, the Forest Service continued its success in initial fires 
suppression, containing 99 percent of all unwanted fires. The 
President's Budget provides the preparedness funding needed to maintain 
this initial attack success rate. The development of an interagency 
fire managing planning and budget model to support cost effective 
allocation of preparedness resources is currently underway.
    The President's Budget provides additional incentives for reducing 
suppression costs by authorizing use of unobligated wildfire 
suppression funds for hazardous fuels treatment. This provides an 
incentive for line officers to reduce suppression expenses so they can 
have more resources to conduct hazardous fuels treatment. We are also 
committed to managing wildland fires for resource benefits or, as we 
also refer to it as, wildland fire use. This option is available to 
Federal agencies that have an approved land use plan and a fire 
management plan that allows for it. Our ability to manage naturally 
occurring fires in order to improve the health of fire dependent 
forests is increasing each year. The 2005 total of an additional 
251,000 acres was significantly higher than 2004 and we look forward to 
increasing our capability to use this important tool.
    These programs demonstrate the Forest Service's approach to 
restoring national forests and grasslands to a more fire adaptive 
environment. Through stewardship contracting, collaboration and 
community involvement, strategic treatment of hazardous fuels, and 
well-planned fire prevention and suppression, we are having a long-term 
impact on minimizing wildfire threats.
    The protection of forest health and open space is increasingly 
affected by the dynamics of a global timber market. Timber prices are 
now often set globally; the result has been a reduction in the private 
wood products infrastructure and divestment of timber companies from 
their timber land in the United States. These trends have altered the 
economic and environmental reality in which the Forest Service 
operates. The fiscal year 2007 budget provides several strategies to 
deal with these realities.
    The sell-off of industrial timber lands opens up millions of acres 
to potential development, which in turns adds to the threat of the loss 
of open space. To counter these trends, the President's Budget requests 
$62 million for the Forest Legacy Program, a $5 million increase over 
last year, which will protect an estimated 130,000 priority acres in 
fiscal year 2007. The Forest Legacy Program works in concert with the 
cooperative efforts of other Federal, State and non-governmental 
organizations to assist private landowners sustain intact, working 
forests.
    With the reduction in mill capacity and other related 
infrastructure, market conditions have created a more limited demand 
pool and led to higher costs for remaining purchasers, adversely 
affecting the financial feasibility of restoration work on our Nation's 
forests and grasslands. The fiscal year 2007 budget addresses this need 
by dedicating $5 million to foster markets in biomass utilization. 
Additionally, authorities of HFI/HFRA and stewardship contracting 
enable more efficient and effective partnerships with the local 
community in treating hazardous fuels, and promote investment in the 
local infrastructure to utilize timber.
    With greater exchange of global goods also comes greater transfer 
of invasive species. The fiscal year 2007 budget provides over $94 
million to Forest Service invasive species programs, allowing the 
agency to complete invasive species suppression, prevention and 
management on over 61,000 acres of Federal lands and 315,000 acres of 
state and private lands. These efforts involve enhanced collaboration 
with Forest Service partners to find and implement solutions to 
invasive species problems. In 2004 the Forest Service invasive species 
program underwent a program assessment rating tool (PART) evaluation. 
As a result of the assessment, new program performance measures based 
on a scientific or policy basis for validating agency actions were 
developed to more frequently update and utilize forest health risk maps 
for decision making and allocation of resources; and to provide for the 
measurement of the environmental and economic effects of invasive 
species treatments.
    An additional strategy for protecting forest health involves USDA's 
work to broaden the use of markets for ecosystem services through 
voluntary market mechanisms as announced by Secretary Johanns at the 
White House Conference on Cooperative Conservation. As part of this 
effort, Forest Service Research and Development will continue its work 
regarding the quantification of ecosystem services values.

                    INCREASED COLLABORATIVE EFFORTS

    The White House Conference on Cooperative Conservation, held in 
August 2005, marked an important milestone in the effort to expand and 
improve collaboration in natural resource management. The White House 
Conference underscored a clear lesson learned from the Forest Service 
Centennial--that the Forest Service has entered a new, more 
collaborative era of natural resource management. Today we are focusing 
on improving forest health and promoting sustainable recreation. In 
order to work effectively in this new environment, the future of the 
Forest Service must be built on collaboration instead of top-down 
regulation.
    The new planning rule for the Forest Service creates a dynamic 
planning process that is less bureaucratic, emphasizes sound science, 
and encourages more public involvement earlier in the planning stages. 
We also expect that the new system of planning will be more strategic, 
transparent, timely and efficient. The planning process will be more 
effective because the rule requires annual evaluation of monitoring 
results and a comprehensive evaluation every 5 years. Under the old 
planning rule, it usually took five to seven years to revise a 15-year 
land management plan; under the new rule, we expect that a plan 
revision will take from two to three years, saving the agency 
significant time and money.
    The new travel management rule, issued in November 2005, provides 
another example of successful cooperation resulting in effective rule 
making. In 2004, OHV users accounted for between 11 and 12 million 
visits to national forests and grasslands. While the Forest Service 
believes that OHVs are a legitimate use of the National Forest System, 
unmanaged OHV use has resulted in unplanned roads and trails, erosion, 
watershed and habitat degradation, and impacts to cultural resource 
sites. The 2005 travel management rule requires each national forest 
and grassland to designate the roads, trails and areas that will be 
open to motor vehicle use. The Forest Service will engage the public so 
that travel management will be a cooperative process, which in turn 
will help increase compliance. The result will be greater protection 
for recreation resources without significant expenditures from Forest 
Service appropriations.
    In 2004 Congress approved the Federal Lands Recreation Enhancement 
Act, giving the Forest Service a 10-year authority to reinvest a 
portion of collected recreation fees to enhance local recreation 
opportunities and improve wildlife habitat in the area. We are 
projecting receipts of $54.8 million in fiscal year 2007 under REA. The 
Act also directed the creation of recreation advisory committees that 
will provide public involvement and comment on recreation fee programs. 
We are planning to establish a number of committees and councils 
throughout the country to afford communities and citizens the 
opportunity to provide input into the recreation fee program. I want to 
thank Congress for providing the Forest Service with this new and 
effective tool for cooperative conservation.
    A final example of collaboration includes working closely with the 
Bureau of Land Management in the energy permitting process. The Energy 
Policy Act of 2005 allows the BLM and the Forest Service to develop 
interagency agreements to support established BLM pilot offices 
designed to streamline the oil and gas permitting process on federal 
lands. These agreements will be used to reduce the backlog of oil and 
gas Applications for Permit to Drill (APDs) and improve the inspection 
and enforcement processes.
    We will continue to emphasize the processing of APDs and lease 
requests, and the initiation and completion of several major oil and 
gas environmental impact statements. This emphasis will increase the 
resources available to process energy permit applications, resulting in 
a more effective permitting process. Within the energy program, the 
``process mineral applications'' activity will increase by $7 million 
over the fiscal year 2006 enacted level to meet the high priority 
objective of processing energy mineral applications.

           INCREASE THE EFFICIENCY OF FOREST SERVICE PROGRAMS

    The President's Budget reflects continued implementation of the 
Forest Service's vision as a ``Center of Excellence in Government'' in 
which it will be viewed as a model agency recognized for efficiently 
delivering its services. The Budget continues reforms that will 
streamline the Forest Service's organization, improve accountability, 
and focus on measurable results. The Budget reduces indirect costs to 
$461 million, and reflects completion of organizational efficiency 
studies that will lead to savings in fiscal year 2008 and beyond. The 
Budget further reflects a continuing emphasis on Forest Service 
performance and accountability by including two new performance 
measures for the National Forest System: (1) the use of volume sold as 
an annual output measure for forest products and (2) an annual 
efficiency measure consisting of the ratio of total receipts for each 
activity to the obligations for each respective activity that generates 
those receipts. These reforms will foster a greater focus on results; 
lead to improved decisions based on performance; and enhance 
accountability through the use of more readily available and better 
quality performance information.
    Through the President's Budget the Forest Service will continue to 
make use of valuable authorities that Congress has recently made 
available to the agency, and the Forest Service will continue its 
efforts to increase program efficiency. With the provisions of the 
Forest Service Facilities Realignment and Enhancement Act, the Forest 
Service is reducing its administrative site maintenance backlog and 
improving efficiency in its land management program. This new authority 
provides a necessary incentive to identify and maintain needed 
facilities while streamlining facility holdings that reflect a bygone 
era of forest management. In fiscal year 2006, we anticipate $37 
million in receipts from this conveyance authority and we will be 
initiating over 100 administrative site conveyances with projected 
receipts of over $77 million by fiscal year 2009. In short, the new 
authority enables the Forest Service to accomplish more with its 
Capital Improvement and Maintenance funds, while also decreasing the 
deferred maintenance backlog by removing unneeded facilities.
    In fiscal year 2007, the Forest Service will continue to implement 
the fiscal year 2006 changes to Knutson-Vandenberg (K-V) authority, 
which allow the Forest Service more flexibility in the expenditure of 
K-V funds. Consistent with OMB direction to offset increases in 
mandatory spending, the agency has issued direction to the field to 
increase collections into the National Forest Fund to offset the 
increase in the K-V program. I would like to express my appreciation 
for support that this subcommittee has given the Forest Service in 
improving this authority.
    Providing high quality recreation opportunities on the national 
forests and grasslands is of great importance to the Forest Service. 
National forests and grasslands received over 200 million visits 
occurring in 2005. The fiscal year 2007 Budget contains $250.9 million 
to provide these opportunities for visitors to National Forest System 
lands. To provide the most efficient use of these funds, we are 
developing a programmatic plan called, ``the capacity-building model 
for sustainable recreation,'' that will identify ways to build capacity 
to meet increasing demand. Tools will include partnership development, 
volunteerism, recreation fee revenues, improved business practices, and 
prioritization of recreation facility assets. Specific actions in 2007 
will include completion of recreation facility master planning to 
prioritize facility assets; completion of a feasibility study on 
retention of recreation special use fees; continued implementation of 
the Federal Lands Recreation Enhancement Act; collaborating with 
private sector partners to create a web site on improved business 
practices, including use of grant resources and volunteerism; and 
completing a skills assessment to enhance business and financial 
skills.
    In 2005 the recreation program PART assessment was conducted. As a 
result of this assessment we are taking actions to improve the 
recreation program performance, including updated performance measures 
connecting recreation program performance with achievement of the 
strategic goals; taking measures to improve visitor satisfaction and 
completing recreation business plans for each of the national forest 
and grasslands.
    The President's budget reflects the efforts of Forest Service 
Research and Development (R&D) to improve research programs while also 
advancing deficit reduction goals. To do this, R&D is expanding 
collaborative and coalition building efforts, focusing funding on 
research with external partners, and aligning research projects along 
strategic program areas. R&D is hosting two ``Outlook Workshops'' on 
future forestry research with non-governmental organizations (NGO's), 
government partners, academia and industry to encourage a common 
research agenda for all sectors of forestry research. In January 2006, 
R&D participated in a summit for Deans from U.S. forestry programs to 
lay plans for a common research agenda. The Forest Service will also 
continue to support the larger research community through the Forest 
Inventory Analysis (FIA). The FIA is the Nation's only forest census, 
and it has been tracking the conditions of America's forests for 
roughly 75 years. The President's Budget funds the FIA program at a 
level that will allow the program to cover 93 percent of the nation's 
forests with an annual inventory.
    R&D is also refocusing its research dollars, further increasing 
R&D's support of external and collaborative research efforts from 13 
percent of the R&D budget to 20 percent over the next five years. 
Finally, R&D is reorganizing its research along strategic programs 
areas, so the agency can best produce the research that supports 
current priorities. Along these lines, the President's Budget allocates 
$1.5 million to research on the value of ecosystem services; $3.5 
million to research on biomass markets and utilization; and includes 
funding for the reorganization of the Forest Products Lab, so the Lab 
can better focus on research that increases the utilization value of 
wood products, particularly in the areas of biomass, small diameter 
utilization, and energy and biofuels production from biomass. Through 
these efforts, the science produced by Research & Development will 
continue to be the foundation for effective Forest Service programs.

           IMPROVING ORGANIZATIONAL AND FINANCIAL MANAGEMENT

    In support of the President's Management Agenda, the fiscal year 
2007 budget continues the Forest Service's efforts to improve 
organizational and financial management. The Forest Service's Business 
Operations Transformation Program is improving the overall efficiency 
of the Forest Service's administrative operations and increasing the 
agency's ability to redirect funds from indirect costs to mission 
delivery. The Albuquerque Service Center successfully opened this past 
year, bringing nearly 400 employees to a consolidated budget and 
finance center that will better serve the needs of Forest Service 
internal and external customers. During the next five years, the 
Business Operations Transformation Program is estimated to result in 
$241 million in savings for the Forest Service.
    The centralization of Forest Service budget and finance will also 
create greater transparency, accountability and efficiency in the 
agency's financial management. The Forest Service continues to improve 
its financial management, as evidenced by the agency's 4th consecutive 
unqualified (``clean'') audit in 2005. Building upon these successes, 
the Forest Service will use improved financial information to drive 
results in key areas.
    The President's Budget also continues support for the Forest 
Service Competitive Sourcing program, and focuses on proper and timely 
implementation of completed competitive sourcing studies and rigorous 
analysis of the studies' results and savings.
    In fiscal year 2007 the Forest Service will continue its work in 
Budget and Performance Integration through implementation of its 
strategic plan, Performance Accountability System, and by making 
effective use of the Program Assessment Rating Tool (PART). The Forest 
Service Strategic Plan helps the agency and its field units develop 
programs of work that address natural resource needs while maximizing 
limited resources and improving performance accountability. The 
Strategic Plan will be revised in fiscal year 2006 to reflect the 
latest needs and resources of the agency.
    Through the PAS, the Forest Service is integrating existing data 
sources so that timely, consistent and credible performance information 
will be available for project and program managers as well as external 
customers. In addition, PART efforts will ensure that the agency's 
activities are aligned with its strategic plan. Thus far the Forest 
Service has used PART to evaluate the following programs: Wildland Fire 
Management, Capital Improvement & Maintenance, Forest Legacy, Invasive 
Species, Land Acquisition, Recreation and Energy. These assessments 
have resulted in development of improved performance measures to better 
track accomplishments and increase accountability and better 
integration of strategic goals with program accomplishments. For the 
fiscal year 2008 budget process, the Forest Service will complete a 
PART analysis of mission-support activities and programs aimed at 
improving watershed quality, and will reassess Wildland Fire and 
Invasive Species. Results from the PART process have been, and will 
continue to be, used to improve program management and develop better 
performance measures.

                               CONCLUSION

    The fiscal year 2007 Budget reflects the President's commitment to 
providing the critical resources needed for our Nation's highest 
priorities. The fiscal year 2007 budget responds to the national need 
for deficit reduction while preparing the Forest Service for a new, 
more collaborative, era of natural resource management. With this 
budget the Forest Service will continue to identify and support more 
efficient and effective methods of pursuing its mission. This will be 
accomplished through increased collaboration, the use of new 
legislative authorities, expanded program efficiencies and improved 
organizational and financial management. Through these efforts the 
Forest Service will continue to sustain the health and productivity of 
the Nation's forests and grasslands.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our fiscal year 2007 
program, and I'm happy to answer any questions that you may have.

    Senator Burns. Thank you, Chief. Now, Mr. Secretary, we 
welcome you to the table.

                 SUMMARY STATEMENT OF HON. MARK E. REY

              REAUTHORIZATION OF SECURE RURAL SCHOOLS ACT

    Mr. Rey. Thank you, Mr. Chairman. I'm going to speak 
exclusively today about the administration's proposal to 
reauthorize the Secure Rural Schools and Self-Determination Act 
of 2000.
    That legislation, as you know, was enacted by Congress in 
2000 to provide counties guaranteed payments for their school 
and road systems to offset the dramatic decline in timber sale 
receipts that occurred during the 1990s.
    What the administration is proposing, is a one-time 5-year 
reauthorization for the legislation. In reviewing the 2000 
legislation and the progress that has been made to date in 
implementing it, the authors of the 2000 legislation 
essentially wanted to effectuate three transitions.
    First was a transition to stabilize county school funding 
over the period of 6 years, so that the counties could 
diversify their economies and become less reliant on Federal 
timber receipts.
    The second was to stabilize the timber sale program or give 
the Federal agencies a chance to stabilize the timber sale 
program and make the receipts a more certain proposition, as 
opposed the situation that existed as a consequence of appeals 
in litigation during the 1990s.
    The third was to effectuate a transition where we improve 
the relationships between Federal land managing agencies and 
county governments, and Federal land managing agencies and 
local citizens.
    In our judgment, looking at the progress that has been made 
over the 6 years of the original authorization, the second and 
third of those three transitions have been nearly complete.
    With respect to timber sale receipts, they are now stable 
and increasing slightly and will continue to increase slightly. 
They are already at levels that were achieved in the early 
1970s and they are dependable for the future.
    Second, with respect to the operation of the resource 
advisory committees established under the 2000 legislation, 
there has been a dramatic improvement in the relationship 
between the Federal land managing agencies and local 
governments and local interest groups.
    Those groups, through the efforts of the resource advisory 
committees, have indeed invested $36 million per year each of 
the last 6 years in resource investments on the Federal lands. 
The result of those investments is to encourage volunteerism, 
particularly volunteerism among student groups in the 
management of the national forest and the Bureau of Land 
Management's lands involved. That's why, in our proposal to 
reauthorize the legislation, we would retain those resource 
advisory committees.
    It's the first of those three transitions that involves the 
county budgets and dependence on Federal receipts which is not 
complete. Some counties have indeed diversified their economies 
and are less dependent today than they were 6 years ago on 
Federal timber receipts.
    Others have clearly not, and it's because that transition 
is not complete and because the authorization for the 
legislation expires at the end of this year, thereby ending the 
guaranteed payments, that the administration has proposed a 5-
year reauthorization of the legislation to try to extend and 
complete the first of those three transitions.
    To fund that reauthorization, we propose a one time sale of 
Forest Service lands that have been identified using criteria 
in each of the individual national forest plans as being 
isolated, difficult, and expensive to manage, and no longer 
meeting National Forest System needs.
    Lands fitting these categories in total amount to about 
309,000 acres of land, involving some 2,900 parcels in 31 
States. A complete list of all of those tracts went up on our 
website on February 10. On March 1, we provided a notice in the 
Federal Register opening a 30-day public comment period on that 
list of tracts so that the public could give us their views on 
the proposition generally and on individual tracts 
specifically.
    Today we are sending up legislative language to effectuate 
the authority to convey those lands for your consideration as 
well as letters to both the President pro tem of the Senate and 
the Speaker of the House.
    To reauthorize the secure rural school legislation, it is 
not necessary to sell all 309,000 acres of land to raise the 
needed funds. We think it will probably take somewhere between 
150,000 to 175,000 acres of land, which gives us a lot of 
flexibility to work with the list and to work with the 
interested public to evaluate each tract on a case by case 
basis before we send the final list up to the Congress later 
this spring.
    We offered this proposal understanding that land sales are 
a sensitive proposition and in doing so, we look back across 
the last 25 years of history at both land sales proposals that 
were enacted by Congress, such as the Southern Nevada Public 
Land Management Act of 1998, the Educational Land Grant Act of 
2000, and our own proposal enacted by Congress--in fact, 
enacted by this committee last year to convey access for Forest 
Service administrative sites.
    We also looked at a number of proposals that have been 
offered over the last two decades that have not met with 
Congress' support. What we discovered in evaluating both sets 
of proposals is that those that were successful and that were 
enacted by Congress seemed to share three characteristics. 
Those characteristics are thus: first, they had to be precise. 
There had to be an exclusive list of what was being discussed 
with very little tolerance for ambiguity about what was being 
considered and what might be sold or conveyed out of public 
ownership.
    The second characteristic was transparency. There had to be 
an adequate opportunity for everybody who had a view, to offer 
that view, and express whether they thought it was a good idea 
in general or whether specific tracts that were being discussed 
should be taken off the table. There was very little tolerance 
for slipping a proposal of this nature into a Senate House 
conference at the 11th hour.
    Third, there had to be an agreed-upon public purpose; that 
the land sales would serve the proposition that the sales would 
fund general deficit reduction didn't and hasn't, over the last 
two and a half decades, garnered much support.
    Our intent and our objective in proffering this proposal to 
Congress is to meet each of those three criteria. First, 
precision, by eventually offering you an exclusive list of 
everything that is being considered so there is not doubt, 
ambiguity, or uncertainty at what might be at stake or at 
issue.
    Second, by giving the public an opportunity to testify by 
advancing this as part of the President's budget in the first 
place and making sure we have collected all of the commentary 
that we can about the proposition generally and about specific 
tracts individually.
    Then third, given the broad bipartisan support for the 
initial enactment of the 2000 Secure Rural Schools bill and the 
similarly broad bipartisan support for its reauthorization, we 
believe we've met the standard of a broadly supported public 
purpose to use the funding generated by the land sales. We 
think it's important to look at our proposal in a larger 
context.
    On the average, using the Land and Water Conservation Fund 
and other authorities, the Forest Service acquires between 100 
and 115,000 acres a year--lands that are identified as meeting 
high ecological values and serving National Forest System 
needs.
    We're probably going to continue, with the Congress's 
support, that rate of acquisition. That means in less than 2 
year's time we would net out from an acreage standpoint the 
effects of this proposal to convey lands that don't meet 
national forest needs and aren't ecologically sensitive.
    A decade ago when I entered public service, if we wrote 
testimony for you describing the National Forest System, we 
would describe it as 191 million acres of national forest 
managed for the Federal good. Today that testimony speaks of 
193 million acres of national forest. So we've grown the system 
over 2 million acres in less than a decade's time.
    So that's the context I think it's most fair to look at 
this in. We have a great deal of commentary over the month and 
a half that this proposal has been part of the public 
discourse. Indeed, in response to that commentary we've made 
some changes.
    For instance, people told us as they reviewed the proposal, 
that even if we agree, for the sake of argument, that these 
lands no longer meet National Forest System needs, that's not 
the same as saying they no longer meet public needs. They may 
be meeting needs that the public enjoys, even if that's not 
something that's integral to the management of the National 
Forest System.
    Indeed, we know that on some of these isolated tracts which 
have road frontage, we've given county governments a special 
use permit to put in picnic tables for a roadside turnout or a 
picnic area.
    So what we've added to the proposal that we're sending to 
you today, is the proposition and a proviso that will offer 
these lands to State, county, and local governments, or land 
trusts acting on their behalf at fair market value on a right 
of first refusal basis. So if there is a public service that 
they are performing, that public service can continue, albeit 
being provided by another, perhaps more appropriate unit of 
government.
    Beyond that, we've heard a lot of rhetoric that this is a 
bad precedent--an unprecedented development and it's neither of 
those. Indeed today in this Congress so far, the Forest Service 
has testified on 24 separate bills that involve the conveyance 
of over 34,000 acres of Forest Service land into other 
ownerships and so, this is no more or less of a precedent than 
any of the other conveyance legislation that Congress has 
considered either in this Congress or in preceding Congresses 
over the last several decades.
    I will say that proposals like this do sometimes generate 
unexpected results, and perhaps the most pleasing unexpected 
result that this one has generated is that we've heard over the 
last month and a half from groups who are on a weekly basis 
critical of the Forest Service's management. They are saying 
that but for the Forest Service's management, dire and 
catastrophic things would occur.

                           PREPARED STATEMENT

    So, it's pleasing to know that when faced with a prospect 
of an alternative, some groups more fully support what the 
Forest Service does on a day-to-day basis. In this job, you 
take your compliments wherever you can find them and so I am 
registering that one for the record today.
    With that, we'd be happy to answer any questions that 
you've got.
    [The statement follows:]

                 Prepared Statement of Hon. Mark E. Rey

                                OVERVIEW

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to discuss the President's fiscal year 2007 Budget for the 
Forest Service. I am pleased to join Dale Bosworth, Chief of the Forest 
Service, at this hearing today.
    In my testimony, I will discuss two main issues. First, I will 
focus on the proposal in the President's Budget to continue funding for 
an amended Secure Rural Schools and Community Self-Determination Act. 
Second, I will discuss the increased funding for the Northwest Forest 
Plan that is requested in the fiscal year 2007 budget, which will 
promote improved forest health and more robust forest products 
economies in the Pacific Northwest.

CONTINUING TRANSITIONAL SUPPORT TO RURAL COMMUNITIES THROUGH THE SECURE 
                           RURAL SCHOOLS ACT

    The Secure Rural Schools and Community Self-Determination Act of 
2000 (Public Law 106-393) was enacted to provide transitional 
assistance to rural counties that had been affected by the decline in 
revenue from timber harvests on Federal lands. These counties 
traditionally relied on a share of receipts from timber harvests to 
fund their school systems and roads. The funding provided by the Act 
has been used to provide over 4,400 rural schools with critical funding 
and has addressed severe maintenance backlogs for county roads. 
Resource Advisory Committees (RACs) established under the act have 
developed and proposed forest health improvement projects. A recent 
study by the Sierra Institute for Community and Environment, Assessment 
of the Secure Rural Schools and Community Self-Determination Act--Dr. 
Jonathan Kusel (January 2006), on the effectiveness of RACs under title 
II and community programs under title III of the Act was encouraging.
    Each year the level of interaction between RACs, local governments, 
and citizens has increased, resulting in broader support and 
understanding of our mission. Additionally, funding for title III has 
also been used to complete community wildfire protection plans which 
are necessary to efficiently plan protection strategies for our rural 
communities.
    The last payment authorized under the Act would be made in fiscal 
year 2007 based on timber and other receipt levels for fiscal year 
2006. The Administration is committed to provide transitional 
assistance to counties and States covered under the Secure Rural 
Schools Act. The Department of Agriculture has worked hard to find the 
offsets needed to temporarily fund this assistance, while targeting and 
gradually phasing it out.
    Our legislative proposal described in the President's fiscal year 
2007 Budget for the Forest Service would provide a source of funding 
for payments under the Secure Rural Schools Act by authorizing the sale 
of certain National Forest System lands. These parcels meet criteria 
identified in existing Forest Land Management plans as potentially 
suitable for conveyance. Many of these lands are isolated from other 
contiguous National Forest System lands, and because of their location, 
size or configuration are not efficient to manage as a component of the 
National Forest System. Isolated tracts can be expensive to manage 
because of boundary management and encroachment resolution costs. The 
sale of these lands will not compromise the health or integrity of the 
National Forest System; instead, it will allow the agency to 
consolidate Federal ownership and reduce management costs.
    The legislation would authorize to the Secretary of Agriculture to 
sell sufficient national forest land to fund an $800 million account 
that would be used to make Secure Rural Schools Act payments over a 
five year period. Payments from the land sales fund will be adjusted 
downwards and eventually phased out. This adjustment recognizes that 
the Secure Rural Schools Act provided transitional assistance to rural 
communities adapting to a changing timber economy and a changing 
federal role in resource extraction.
    Funds from the land sales account would be in addition to payments 
to the States from annual timber and other receipts on national forests 
and BLM lands. For administrative purposes, the Secretary of 
Agriculture would also make the supplemental payments from this account 
for Bureau of Land Management O&C lands. Payments will continue to be 
targeted to the most affected areas. Timber receipts are expected to 
rise over the next five years, which should further help in reducing 
the impact of the payment phase-out.
    Since payments under the Secure Rural Schools Act began in 2001, 
the affected economies have made important strides in economic 
diversification and are now less dependent on federal timber receipts. 
In addition, the Forest Service has reestablished itself as a catalyst 
for economic development by conducting hazardous fuels treatments that 
can support a market in forest biomass. By selling isolated federal 
lands, we will further contribute to diversified rural government 
funding.
    When the Federal lands are sold and become private property, they 
will be added to the county tax rolls, providing a sustainable funding 
source for local governments. All of these factors combine into a 
unified plan to promote robust local economies and reduce the 
dependence of county governments on direct federal assistance.
    The Administration remains committed to acquiring environmentally 
sensitive lands and protecting them from development. This commitment 
is reflected in the President's request for a $5 million increase in 
funding for the Forest Legacy program, which will protect an estimated 
130,000 priority acres in fiscal year 2007 through the purchase of 
conservation easements or fee simple title. In addition, our land 
acquisition program and land exchange program has been adding about 
100,000 acres per year to the National Forest System for the last 
several years. By selling lands that are inefficient to manage or are 
isolated with limited ecological values and purchasing critical, 
environmentally sensitive lands, the Forest Service will maintain the 
integrity of the National Forest System while funding payments under 
the Act in a fiscally responsible manner.

             INCREASED FUNDING OF THE NORTHWEST FOREST PLAN

    The 2007 Budget also reflects the President's commitment to 
sustainable forestry in the Pacific Northwest through increased funding 
for the 1994 Northwest Forest Plan. The Northwest Forest Plan affects 
the management and administration of 24.5 million acres of Federal 
land, of which 19.4 million are managed by the Forest Service within 19 
national forests in western Oregon, western Washington, and northern 
California. The Northwest Forest Plan was designed to produce a 
predictable and sustainable level of timber sales while protecting the 
long-term health of forests, wildlife and waterways of the region. The 
Plan has succeeded in meeting its environmental goals. A 2004 Forest 
Service review of the first 10 years of the Northwest Forest Plan found 
that the net gain in older forests since 1994 was between 1.25 and 1.5 
million acres, over twice the 600,000 acres expected during the first 
decade of the plan.
    The 2004 review found that the Plan has not been successful at 
providing a predictable level of timber and non-timber resources. In 
order to recognize the needs of all parties affected by the Northwest 
Forest Plan, the President's budget increases funding for the Plan by 
$66 million, with $41 million for forest products, $6 million for 
hazardous fuels treatment, and the remaining $19 million for assorted 
ecosystem management programs. This level of funding allows the Forest 
Service to offer the Plan's goal of 800 million board feet of timber 
per year.
    The economies of the Pacific Northwest have experienced marked 
change over the past 15-20 years. The region went from harvesting 4 
billion board feet of timber in 1990 to 409 million board feet in 2000, 
and the forest economies of the region have suffered from the lack of a 
predictable timber supply. The goal of the Administration is not to 
return to the peak levels of timber production; instead, the fiscal 
year 2007 budget provides for a sustainable, predictable level of 
timber harvest that also protects forest health. The current forest 
products economy offers great opportunities for businesses able to use 
new technologies and tap into expanding markets for new products. With 
a predictable timber supply established, the Pacific Northwest will be 
better equipped to adapt and succeed in the changing forest products 
market.
    One of the best examples of new opportunities in forest products is 
the rapidly expanding market for wood pellets as a fuel source. The 
demand for wood pellets for commercial and home heating has boomed as 
Americans face higher heating costs from traditional sources. Wood 
pellets suppliers have reported shortages from New Mexico to Rhode 
Island. Pellet producers, such as Forest Energy Corporation in Show 
Low, Arizona, are running their processing mills 24 hours a day and 
seven days a week to try and meet demand. In making the wood pellets, 
Forest Energy Corporation uses the small-diameter wood produced from 
hazardous fuels treatments in Arizona's national forests. Expanded 
funding for the Northwest Forest Plan will create similar win/win 
situations in which both sustainable harvested timber and the 
byproducts from hazardous fuels treatments are used to meet the growing 
demand for forest products.
    In addition to meeting the Northwest Forest Plan's timber targets, 
the Forest Service will improve over 3,900 acres of terrestrial 
wildlife habitat and 120 miles of fisheries habitat in fiscal year 
2007. The Forest Service has developed a comprehensive strategy for 
aquatic restoration within the Northwest Plan area to restore priority 
watersheds.
    The President's Budget also enables the Forest Service to continue 
to emphasize the treatment of hazardous fuels in the wildland-urban 
interface and address the reforestation needs of recent large forest 
fires. With the expanded NWFP funding, the agency will continue to 
emphasize partnerships and integrated projects to protect municipal 
watersheds, recover habitat for endangered and sensitive species, and 
control the spread of invasive species.
    The 2007 President's Budget provides $610 million to continue 
implementation of the Healthy Forests Initiative, to reduce hazardous 
fuels and restore forest health. The budget proposal, more than a $12 
million increase over 2006, takes an integrated approach to reducing 
hazardous fuels and restoring forest and rangeland health. Along with 
$301 million to the Department of Interior (DOI), the fiscal year 2007 
budget provides a total of $913 million to implement the Healthy 
Forests Initiative and the Healthy Forests Restoration Act.
    Through the continuation of the Secure Rural Schools Act and 
through expanded funding of the Northwest Forest Plan, the President's 
Budget promotes sustainable rural communities and the expansion of a 
forest products economy that is compatible with improved forest health. 
These efforts, in combination with the President's continued support of 
the Healthy Forests Initiative, highlight the Forest Service's 
commitment to managing the Nation's forests and grasslands with greater 
innovation and renewed efficiency. I look forward to working with 
Congress to enact the President's fiscal year 2007 budget. At this time 
I would be pleased to answer any questions.

                          NEW GRAZING PROPOSAL

    Senator Burns. Senator Dorgan is on kind of a short time 
line and for another hearing. So we'll allow that he can lead 
off the questions here this morning, so that he has other 
things.
    Senator Dorgan. Mr. Chairman, thank you very much. Chief 
Bosworth first off, you'll recall last year that you all had 
issued some new rules with respect to leasing land, or shared 
cattle and whether under those circumstances people would 
qualify for grazing permits. I held a subcommittee hearing in 
Bismarck on August 30 of last year and we had the room filled 
with people pretty upset about things.
    We had your folks testify and the folks from your regional 
office, one of the things I discovered is that they learned 
about these new proposals at the same time that I learned about 
them. There was no consultation with the local folks. It 
appeared to me to be a pretty significant problem of 
communication. Have you reviewed that circumstance?
    Now you withdrew the proposals and should have, but what 
concerned me mostly about that, was that it appeared to me 
somebody in Washington just said here's our new approach and 
sent them out and caught everybody by surprise, even your local 
and your regional folks. Can you describe what happened there?
    Mr. Bosworth. Yes. I have looked into that and as you've 
said, we withdrew the handbook. We have a process where we can 
issue interim directives and then receive comment at the same 
time. It's a good system. It works fairly well.
    I think this was an inappropriate use of that system. I 
think we should have gone out and talked to people before we 
issued the interim directive and found out what people thought. 
Then we could issue a directive with whatever changes need to 
be made, as opposed to just issuing the interim directive.
    Senator Dorgan. I appreciate hearing that you also feel 
that was a problem and has been corrected because that 
shouldn't happen. You shouldn't catch your own people by 
surprise out there. So I appreciate the response.

                     THEODORE ROOSEVELT/EBERT RANCH

    Mr. Rey, you were in North Dakota recently. You have 
requested opportunities in funding to purchase the Theodore 
Roosevelt original ranch site in the Badlands and we have 
agreed I think, on a number of provisions with respect to that.
    I would like for us to exchange those letters and put them 
in this hearing record as well. I believe we're all set in 
terms of how we do that for a no net gain of Federal lands.
    Mr. Rey. That is correct.
    [The letters follow:]

                                               U.S. Senate,
                                  Washington, DC, February 9, 2006.
Hon. Mark Rey,
Undersecretary for Natural Resources, U.S. Department of Agriculture, 
        Washington, DC.
    Dear Mr. Rey: As per our recent conversation, this letter will 
serve as a record of my position on the Department's request to 
reprogram $1.45 million towards the purchase of the Ebert Ranch 
property in Billings County, North Dakota. I support the preservation 
of this important piece of history, which includes the viewshed of 
President Theodore Roosevelt's former ranch on the North Dakota 
Badlands. However, I am only willing to lend my support to this 
reprogramming and to future funding for the acquisition if the 
Department agrees to certain conditions that will help resolve local 
concerns.
    First, I expect the Department to submit a legislative proposal for 
the necessary land conveyance that reflects that the purchase of the 
Ebert Ranch property will not be completed until all of the other 5,150 
acres of the Dakota Prairie Grasslands the agency proposes to sell are 
actually sold. This will ensure that there will be no net increase in 
Federal lands in the state, and there will not be a diminished property 
tax base for local government. I also expect the Forest Service to take 
steps between now and the time the fiscal year 2007 Interior 
Appropriations bill is passed to make sure that these sales move 
forward in a timely manner once the bill is signed into law.
    Second, the conditions under which the property is acquired must 
not interfere with the other multiple uses that currently exist for 
that property. Grazing, oil and gas development, recreation and other 
multiple uses must all be preserved. In particular, the Department 
should commit to transferring all grazing allotments affiliated with 
the Ebert Ranch property to the Medora Grazing Association in order to 
ensure that these acres stay in production.
    Moreover, the Forest Service must also demonstrate that it wants to 
work with local stakeholders to resolve other grasslands management 
issues by agreeing to codify specific policy changes. The agency's July 
2005 attempt to make policy changes to its grazing handbook and manual 
without appropriate public involvement severely undermined public 
trust. The changes included the elimination of leasing base property 
and shared livestock by grazing permittees, which would be disastrous 
for many ranchers in North Dakota. To ensure that these policies are 
not reissued, I intend to amend your sale authority with legislative 
language that protects North Dakotans from any future restrictions for 
grazing permittees on the leasing of base property or shared livestock. 
I ask that you affirm your commitment that the Administration will 
support my efforts to add these provisions, which I would make specific 
to North Dakota.
    I also expect the Service to work directly with grazing 
associations and other interests to develop a mutually acceptable plan 
to implement the grazing Record of Decision for the Dakota Prairie 
Grasslands Management Plan. This includes negotiating a reasonable 
compromise with grazing associations and other interested parties on 
the proposed Allotment Management Plan pilot demonstration project.
    Finally, virtually every other scenario that was explored for the 
Federal Government to acquire the Ebert Ranch property would have 
required Governor John Hoeven to approve the transaction. You have 
chosen to structure this acquisition so that the land can be acquired 
by the Department without his approval. However, I still believe that 
the best interests of the State of North Dakota are served by ensuring 
that he supports the Federal Government's efforts to purchase and 
conserve this property. Therefore, I ask that the Department obtain 
Governor Hoeven's support, in writing, for the acquisition of this 
property prior to the reprogramming of any funds.
    You have previously indicated to me that the Department is willing 
to meet these conditions and ensure my support for this acquisition. I 
request that your respond to this letter reaffirming that commitment. I 
look forward to working together to resolve issues of mutual concern 
and protect this historic property.
            Sincerely,
                                           Byron L. Dorgan,
                                                      U.S. Senator.
                                 ______
                                 
                    U.S. Department of Agriculture,
                                   Office of the Secretary,
                                     Washington, DC, March 3, 2006.
Hon. Byron L. Dorgan,
U.S. Senate, Washington, DC.
    Dear Senator Dorgan: This is in response to the February 9, 2006, 
letter outlining your position on the Department's request to reprogram 
$1.45 million towards the purchase of the Ebert Ranch property in 
Billings County, North Dakota. I appreciate your support for the 
acquisition of this important historical property. In addition, we will 
continue to seek the necessary approval for reprogramming with the 
House Appropriations Committee. Your support for the reprogramming is 
provided only if the Department could assist in the resolution of 
several local concerns. The Department's response to these conditions 
is as follows:
    We recognize the need to dispose of a like number of acres of the 
Dakota Prairie Grasslands (DPG) in order to insure there is a no net 
increase in Federal lands in the state upon completion of the proposed 
acquisition. The Department is prepared to submit a legislative 
proposal providing the Secretary of Agriculture the authority needed to 
convey the necessary acreage through land sales at market value. Every 
effort will be made to insure these lands are offered for sale in a 
timely manner once this authority is provided. Preparatory work to that 
end is already underway.
    When acquired, we will manage the property as a component of the 
DPG in accordance with the Forest Plan direction which provides for a 
full complement of multiple use resource activities. Grazing allotments 
associated with the Ebert Ranch would continue to be grazed through 
existing arrangements with the grazing Association.
    We will provide legislative language to continue the grazing 
permittee practice of leasing base property and shared livestock 
specific to the state of North Dakota without timeframe restrictions.
    We have and will continue to work with the appropriate grazing 
associations in the development of the demonstration project for 
allotment management planning on the DPG. The objective of the project 
is to provide a long term sustainable multiple use management through 
sound and practical management of grassland ecosystems for the multiple 
benefits of local communities and the public.
    Finally, it is true that the current structure of the Ebert Ranch 
acquisition would not require the Governor to approve the transaction. 
However, we will continue to work with the Governor to assure his 
support for the acquisition.
    I look forward to working with you and other appropriate 
Congressional members to both resolve the issues of mutual concern on 
the Grasslands, and acquire this historic property.
            Sincerely,
                                                  Mark Rey,
                Under Secretary, Natural Resources and Environment.

                 NATIONAL RECREATION RESERVATION SYSTEM

    Senator Dorgan. Let me also ask Chief Bosworth about this 
issue ricocheting around which you're very well familiar with, 
the contracting for the National Recreation Reservation System, 
a $100 million contract.
    Now I'm just an observer of this, but my understanding is 
the GAO has twice evaluated this and indicated that they felt 
the contract was improperly awarded. Yet, I think the Forest 
Service, from what I understand, has intended or decided to go 
forward with the procurement of this anyway.
    Is that the case? Do I have the facts right?
    Mr. Rey. Essentially, that's correct. GAO issues opinions 
in response to contract disputes. Under the law, those opinions 
are advisory.
    With respect to GAO's first opinion, we agreed there were 
some flaws in the contract administration which is why we 
reoffered it.
    In response to their second GAO opinion, we think they mis-
analyzed the record as it existed at the time. It is within our 
authority to proceed and the unsuccessful contract bidder can 
now, if they choose, decide that they want to pursue this 
further action through the Court of Claims.
    So far, they've filed a protective notice, but there are 
discussions ongoing. I don't know where that will head.
    Senator Dorgan. Is it quite unusual for an agency, despite 
the advice of the GAO or the evaluation of the GAO, to proceed 
anyway? You worked in the Senate I believe, and you understand 
that we rely to a substantial degree on the GAO.
    The GAO is our investigative arm. They have investigated 
this twice and both times come up saying you're short and this 
shouldn't proceed. Yet, you're proceeding anyway. Have you done 
that, and can you cite other areas where you've proceeded 
against the advice of the GAO?
    Mr. Rey. There have been no other areas I know of where the 
Forest Service has, but it's not uncommon in the case of other 
agencies. We'd be happy to sit down with you and go through 
these specifics of this. There are some countervailing reasons 
why we did not want to offer the contract a third time.
    Had we offered the contract a third time, the prevailing 
bidder the first two rounds made it quite clear that they would 
appeal that result. So we wouldn't have been before GAO a third 
time under that circumstance.
    So this is a case where the two companies involved are 
quite determined to exercise all of their remedies and options. 
Eventually, we have to get beyond that and offer a contract, so 
we can offer recreation reservations to the public.
    So one of the strong considerations, was the virtual 
certainty that we would have been before GAO a third time 
anyway. But I think if we can have the opportunity to give you 
a briefing in greater detail, you will see some circumstances 
that also mitigated in favor of moving forward.

                             NOXIOUS WEEDS

    Senator Dorgan. Let me finally, Mr. Chairman, thank you for 
your indulgence. Let me say that I want to submit some 
questions for the record including questions about leafy 
spurge--to the extent there is some improvement, good for you.
    Our ranchers--and I'm sure in Montana and Colorado feel the 
same way--our ranchers want the Federal Government to be a good 
neighbor and a good neighbor means taking care of your weeds. 
So, I want to submit some questions and those questions will 
include among other things, the leafy spurge issues.
    Now I ask that you respond to the written questions. Thank 
you very much for being here.
    Senator Burns. Thank you, Senator. You know you can go to a 
lot of fancy things in this town and if somebody asked you what 
you're working on and you say weeds, you'll find out how quick 
you're standing there by yourself, because nobody understands 
this battle we have with noxious weeds and invasive species in 
our country. That is something, we found out how to control 
them. We have a lady in Big Timber, Montana that can solve your 
problem for you if you have a really big problem. But now 
getting those folks at the table to act and to sign off on that 
is another story. But it offers no chemicals. It's as natural 
as day following night and it's grazing. Pure and simple, it's 
grazing. That's what controls weeds--sheep eat weeds and they 
take those numbers down.

                         GRAZING PERMIT BACKLOG

    While we're talking about that, we've got a real problem in 
the backlog of expiring grazing permits that need to be 
renewed. Yet, you cut that back this time. Congress put a 
schedule in place for renewal--the permits of the 1995 
Rescission Act. So your budget justifications says you're only 
getting done 50 percent of the work that you need to do each 
year to comply with that schedule and the schedule requires 
those allotments to be done by 2010. That doesn't seem very far 
off right now, as we sit here and talk about it.
    Now you've reduced the program by $8.5 million and the 
number of grazing allotments processed declined by 34 percent, 
from 484 allotments this year to 321 next year. Now why is it a 
good idea when we still have 3,200 permits that need to be 
processed?
    It makes no sense to me and my question is, how many 
allotment decisions have been made using the categorical 
exclusion? I would say, you know we get to feeling kind of 
like--and I know most of you hunt birds and you take bird dogs 
and everything like that, you know--we're feeling kind of like 
that bird dog up here, that we find the bird, we flush the 
bird, and the shooter never hits it. We don't get anything to 
retrieve and pretty soon, after four or five times of that, we 
get kind of tired of hunting for you and fighting for you out 
there to give you the tools to complete your work.
    So there was a cap, I think around 900 in that particular 
piece of language on categorical exclusions. So I would ask 
you, how many allotment decisions have you made using this 
authority so far. How many have you used?
    Mr. Bosworth. Let me just take a second to give you a 
little bit of background. We got the authority, which very 
helpful to use the categorical exclusions about a year and a 
half ago. Then of course, it took us a little bit of time, not 
too much, to get the directives out.
    Then we got into an issue called the Earth Island Institute 
lawsuit on categorical exclusions. That held us off until about 
last fall and we moved forward with using categorical 
exclusions. I think we've completed 44 allotments at this point 
using the categorical exclusions. We expected to do another 100 
this year and it's going to continue to be a tool that will 
work.
    We exceeded our targets in terms of range allotments that 
were completed in 2005. I believe we'll meet or exceed our 
targets this year. I would expect and hope that we would be 
able to exceed the number that is shown for the budget 
justification for fiscal year 2007. We'll be very close to 
meeting our expected number of allotments that use categorical 
exclusions and have them completed by the timeframe.
    So we're still committed to achieving that objective and 
that target.
    Senator Burns. You've cut back your resource here; what 
effect will that have?
    Mr. Bosworth. Obviously when we have less dollars, we do 
less work. Having said that, though, I think I mentioned a 
couple of things in my opening comments about some improved 
efficiencies that we'll get more of the dollars to the ground 
by reducing our indirect costs by centralizing our business 
processes. Some of those things will save us a considerable 
amount of money over the next few years and what we're after is 
getting more of the dollars out on the ground getting the work 
done.
    So I believe that that is one of the ways we'll be able to 
achieve and exceed some of these targets.

                       GRAZING AND NOXIOUS WEEDS

    Senator Burns. This is the dilemma we find ourselves in, in 
this respect, then it is a concern that Senator Dorgan had 
about leafy spurge. We've got both spurge and nap. Some private 
forest and private lands are paying this person that has got a 
lot of sheep. They are paying them a buck a head a month to 
graze it off when the livestock people use to pay for the 
permits to use that resource of grazing.
    Now it seems to me that we could solve two problems here. 
By accelerating these grazing permits and deal with our 
invasive and weeds and get it done. These are dollars that--
they're not very many dollars involved, but it has more impact 
on the health of the forest and our range lands than anything 
we could do.
    It's just out there and very simple. Why we can't get that 
done, is absolutely beyond me. I know why we're not getting it 
done, because we just don't have a lot of folks that go down 
deep in the Forest Service that really believe this to happen. 
They may have to do some work. They may have to stake out some 
boundaries.

                            GRAZING PERMITS

    But I really believe that this business of denying those 
grazing permits, actually denies us a most essential tool to 
the health of the land and the forests. I really believe that, 
because I can show you maps, that when we have grazing in 
forest land, we had less fires.
    Mr. Bosworth. Mr. Chairman, I'd like to respond to that 
because there are no situations where a permit has expired that 
we haven't reissued the permit. The issue here is getting all 
of our grazing allotments reissued under NEPA. In the meantime, 
we're still grazing. We have used contracts for sheep and goats 
in places in the past, to work specifically on things like 
leafy spurge, because that is effective.
    With cattle, it's not. It doesn't do the same thing. From 
time to time, we pay people to graze on the national forest to 
actually reduce the amount of leafy spurge.
    We're also using the biological controls like a flea beetle 
to help with both leafy spurge as well as spot knapweed.
    Senator Burns. Most of that was developed over at Sidney, 
Montana.
    Mr. Bosworth. Some of it was and it works fairly well in 
many places. We're not reducing any grazing based upon the 
schedule that we had for reissuing these allotments.
    The issue would be that if we don't complete it by the end 
of the timeframe, we start having problems then. I think that 
is 2010. We expect to meet that date. We expect to have all of 
these reissued by that time. In the meantime, if one ends, then 
we will reissue it anyway. We have that authority that we were 
given by Congress.
    Senator Burns. Okay. I just need some dedication and I'd 
like to see some folks down there doing those things. I don't 
want their shirt tale to hit their backside. I want them to get 
after it.
    Mr. Bosworth. I would like to add that our folks in the 
field are committed to getting this done. There is no lack of 
desire on their part and they are out on the ground, trying to 
get the job done.

                SECURE RURAL SCHOOLS LAND SALES PROPOSAL

    Senator Burns. Let's talk about the sales of these acres. 
Now I'll tell you what the attitude of the folks in Montana are 
taking, that you're going to sell about 13,948 acres eligible 
for the sale in Montana, when 75 percent of the receipts go to 
schools in California, Oregon, and Washington.
    I'm not going to sell my ranch and then send the money over 
there. How do I justify that when I'm driving down the road 
next week?
    Mr. Rey. Well, the 2000 legislation was a piece of national 
legislation and in establishing the guaranteed payment, it 
mirrored what were the historic timber sale receipts in 
different States.
    Our proposal to reauthorize it is a national piece of 
legislation, although we did include in response to commentary 
from a number of members, a requirement that we maximize 
regional equity to the extent possible. I do think that when we 
get into the reauthorization of the Secure Rural Schools 
legislation, one of the things we would like to work with the 
committees of jurisdiction on is the question of whether the 
2000 formula is still the right distribution of funds.
    Today, as I said in my testimony, some counties have made 
the transition better than others and it may be that we should 
be readjusting the formula to reflect that. I dare say, there 
are some counties in States that get the majority share of the 
money under the 2000 legislation that have done a pretty good 
job of making that transition. There are also counties and 
States that got a lesser share in 2000--based upon the historic 
receipts level--that haven't made the transition.
    Senator Burns. Well I agree with that, but I find a hard 
time coming up with an answer when you're doing things like 
this.
    Senator Allard, welcome to the committee this morning.
    Senator Allard. Thank you, Mr. Chairman. It's a pleasure to 
be here, as always. I have a prepared statement and I wonder if 
I might make that?
    Senator Burns. Without objection, it shall be made a part 
of the record.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you, Chairman Burns, for holding this important hearing. 
Colorado's abundance of forests make this a very significant hearing to 
me.
    Undersecretary Rey and Chief Bosworth, I thank you for your 
appearance before the subcommittee today, it is good to see both of you 
again. The role the Forest Service plays in managing our public lands 
is of particular interest to the people of Colorado.
    I hope the committee will indulge me as I am about to brag about my 
home state for a moment. I think that I am one of the luckiest people 
in Washington, DC. Not only do I get to serve the people of Colorado, 
but I am fortunate enough to have incredibly beautiful and unique lands 
in my home state. Colorado is home to 13 National Forests. This is more 
than almost any other state. These forests provide countless scenic 
vistas, unequaled hunting, fishing, and camping opportunities, and the 
nation's most popular skiing. In fact not only does the nation's most 
visited ski resort lie in Colorado, but 3 of the top 5 most visited ski 
areas call Colorado home.
    But the importance of Colorado's forests goes far beyond 
recreational opportunities. Our National Forests are a cornerstone of 
Colorado's economy. Hunting and fishing alone contribute over one 
billion dollars to Colorado's economy every year, with much of this 
money going to rural communities.
    This and other forest related industries pump billions of dollars 
into Colorado's economy and employ one of the states largest segments 
of the workforce.
    But perhaps the most important thing is that Colorado's forests 
also contain 4 major watersheds, the Arkansas, Upper Colorado, Rio 
Grande and Missouri (or South Platte), that supply water to 19 western 
states. Colorado can truly be called the Headwaters State. With the 
obvious exception of Hawaii it is the only state where all of the 
rivers flow out of the state's borders.
    Now I have to turn to the bad news. Areas of the state continue to 
suffer from drought conditions, and the potential for catastrophic 
fires is very high again this year. To compound this problem Colorado 
currently has 1.5 million acres that are suffering from the effects of 
beetle kill.
    Timber sales are thought by many resource managers to be the single 
most effective tool available to the Forest Service to mitigate 
against--or treat during--episodes like bark beetle epidemics. But the 
Forest Service doesn't seem to be getting enough money to the national 
forests in Colorado to combat the problem. We've got a sawmill in 
Montrose that's running at half capacity and another one just across 
the State line in Saratoga, Wyoming, that's closed because they don't 
have enough timber.
    That said, I support the proposed increase in the forest products 
line item and applaud the emphasis on forest plan implementation. I 
will have a question regarding this matter when we get to that portion 
of this hearing.
    Thank you again, Mr. Chairman

                         NORTHWEST FOREST PLAN

    Senator Allard. I have a question regarding the President's 
budget. There's a $30 million increase in forest products line 
item and the entire $30 million increase plus an additional $11 
million of forest products funding would go to the Pacific 
Northwest as increased funding for the Northwest Forest Plan.
    My question is this: Will the increased funding for the 
Northwest Forest Plan be at the expense of dealing with the 
bark beetle problem in Colorado, or is there room in this 
proposed budget to get more timber sale money to the national 
forests in Colorado to address the bark beetle problem?
    I'm sure you're aware that we have a very serious problem 
in Colorado with bark beetle and we're losing our entire 
forests in some cases. I'm wondering if you would respond to 
that?
    Mr. Rey. Sure. I'll start and the Chief can add anything he 
wants to. The 2007 budget proposal suggests slight increases 
for both the forest management account, timber sale account, 
and the hazardous fuels account in all Forest Service regions.
    By far, the largest increase is in the Pacific Northwest to 
fully fund the Northwest Forest Plan and we think that's 
justified. Over the last 10 years, by far the sharpest decrease 
in timber sales levels has been in the Pacific Northwest. The 
Northwest Forest Plan was itself an 80 percent reduction of 
what were historic levels there. So simply meeting the 
Northwest Forest Plan means we're only going to hit about 20 
percent of what the historic level was.
    That increase that we're proposing in 2007 will not come at 
the expense of any other region. We are proposing for the 
implementation of the Healthy Forests Initiative and the 
Healthy Forests Restoration Act yet another record request--
that being the third in a row--for a total funding for those 
purposes.
    If Congress looks favorably on that request and if the 
Federal land managing agencies--Forest Service and the 
Department of the Interior--meet the targets that we've agreed 
to in fiscal year 2006 using money you've already given us, as 
well as using the money that we requested in fiscal year 2007, 
by the end of 2007 we will have treated Federal acreage 
equivalent to the land mass of the State of Ohio.

                              BARK BEETLES

    Senator Allard. Well I'm wondering if perhaps, maybe you 
won't be available--you and Mr. Bosworth both wouldn't be 
available--to come by my office. I would like to visit with you 
a little bit about our bark beetle problem in Colorado, if you 
would. I also have a letter I would like to give to you and to 
Mr. Bosworth when we leave for the vote, if that's okay.
    [Note.--Senator Allard asked Chief Bosworth for a meeting 
about the bark beetle problem in Colorado. Forest Service 
representatives met with members of Senator Allard's staff on 
March 30, 2006, and discussed the problem.]

                            HAZARDOUS FUELS

    Senator Allard. Mr. Rey, also I have a question in regard 
to the $11 million increase in hazardous fuels funding in the 
budget. I strongly support spending money pro-actively in 
hazardous fuel projects. It will help reduce the risk of forest 
fires also, and the associated risk to watersheds, communities, 
and residents when we get the fires.
    I understand some acres treated aren't the highest priority 
acres. From your reviews of the hazardous fuel program, is 
there room to improve what is being done on the ground, and how 
are you working towards that objective?
    Mr. Rey. There's always room for improvement. But 
substantial improvement has already occurred. What drives the 
priority selection for acres today are primarily two things.
    One, the development of the community-based fire plans that 
several hundred communities in the West have developed to 
identify the acres that create the greatest risk to the well-
being of those communities. That was a planning system that was 
incorporated in the Healthy Forests Restoration Act and has 
been widely embraced by communities throughout the country. So 
to the extent that acres are identified in those plans, they 
come to the top of the list.
    Second, we are developing some fire behavior and spread 
models that are now beginning to determine the patterns of 
treatments we use, so that we have the greatest potential to 
control wildfire spread, treating the most effective number or 
the most cost effective number of acres in a particular 
watershed or airshed possible.
    Senator Allard. Well, I just wonder how successful the 
Forest Service has been at integrating these multiple budget 
line items. For example, the hazardous fuel, the forest health, 
and timber sales funding, and to individual projects in getting 
more bang for your buck.
    Mr. Rey. I think we've been pretty successful in doing 
that. The proof in the pudding will be in this fire season and 
in subsequent fire seasons as we are able to demonstrate to you 
in a real time, on-the-ground basis, that wildfires that ignite 
were brought under control, as a consequence of burning into 
areas that were treated. Already this spring, a fire called the 
February fire--actually this winter, since February is part of 
winter--the February fire, as it was named in Arizona, was 
controlled because it burned into some treated areas that were 
treated as a consequence of the Healthy Forests Initiative.

                           RECREATION FUNDING

    Senator Allard. When I look at what's happening in the 
various regions and whatnot, I have a concern about Forest 
Service Region 2 where Colorado is located. It's my 
understanding--and correct me if I'm wrong--that the national 
forests have more visitors there than in any other region.
    Fully about 32.5 million people visited there last year, 
for example. Now that's a good thing because obviously, we want 
people to enjoy our forests and the great resources that are in 
Region 2. While we look at that figure, it's confusing that it 
doesn't receive the highest recreation funding. In fact, it 
gets less funding per visitor than any other region. I wonder 
if you can explain why this is the case in Region 2?
    Mr. Bosworth. The way we allocate the recreation dollars 
varies depending upon the kind of recreation that would be 
occurring on the national forest. For example, if you count 
skier days the same way you would count, say a campground, 
there would be a difference in terms of the cost of 
accomplishing that, or administering a wilderness area, from 
the recreational standpoint. When it's a small wilderness close 
to a high population area, that is much more expensive to do 
than, say, a very large wilderness area that is a long ways 
away from a population area. So what we do is we look at the 
different kinds of recreation that occurs and the cost of doing 
that and we allocate those dollars to the regions based upon 
that approach. I'd be happy to sit down with you or your staff 
and have some folks go over the process that we use for that 
allocation. We're always continuing to make adjustments to try 
to make sure that we get the dollars to high priority areas.
    Senator Allard. I would very much like to have that. I'll 
take you up on that after with my staff, because I really would 
like to see how that is working so I can have a better 
understanding of it.
    [Note.--Senator Allard accepted Chief Bosworth's offer to 
have a meeting concerning the recreation funding allocation 
process. Forest Service representatives met with members of 
Senator Allard's staff on March 30, 2006, and discussed the 
issue.]
    Mr. Rey. I would just say in very simple terms, overnight 
use costs more to manage than day use and a lot of the Region 2 
use is day use off the Rocky Mountain front by people coming 
from Colorado or from the Denver metropolitan area and coming 
into the forest for a day either to picnic, hike, ski, or to do 
other day-use things and then going back home that night.
    Senator Allard. Mr. Chairman, I'm not familiar with how 
much time you're giving us.
    Senator Burns. You're done.
    Senator Allard. I had a feeling that perhaps maybe my time 
was expiring so I'll quit cooking.
    Senator Burns. I'll tell you one thing, when the chairman 
of the full committee comes in, we're all done.
    Senator Allard. You've got a good point.
    Thank you, Mr. Chairman. I do have other questions, I would 
just like to submit them in writing.
    Senator Burns. For the information of our members here, we 
have I think, three stacked votes which we're going to have--
everybody is trying to get out of here tonight--so we're going 
to have a lot of votes, and so our hearing may be shortened a 
little bit by this.
    So Senator Cochran, we welcome you to the subcommittee this 
morning.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to join you and other members of 
this subcommittee in welcoming Secretary Rey and Chief Bosworth 
to this hearing, reviewing the budget request for the 
management of our forest resources and the other activities and 
challenges that face the Department.
    I'm very pleased to also commend you for your timely and 
energetic devotion to duty in the aftermath of Hurricanes Rita 
and Katrina, which struck the gulf coast region of our country 
and did such a tremendous amount of damage to forest resources, 
both on private lands as well as public lands and the effort 
you're making to help recover, and rebuild, and restore health 
to the forest in this region. I deeply appreciate it and it's 
going to be a continuing effort and we'll try to provide the 
resources we have available to us through the appropriations 
process to ensure that you have what you need to do the job.
    Other than that, we know we're confronted with some 
wildfire challenges because of debris and difficulties that 
stem from these disasters. We recognize that we have an 
obligation to try to make available additional funds for that 
purpose, too.

                           PREPARED STATEMENT

    I don't have any other questions. I know our time is 
limited because of this series of votes that's occurring. I 
appreciate the chairman giving me an opportunity to come in and 
welcome you and I would ask that the rest of my statement be 
printed in the record.
    Senator Burns. Without objection, it will be. Does that 
include all the scribblings, too?
    Senator Cochran. Just like I wrote it, that's good.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman I am pleased to join you in welcoming Secretary Mark 
Rey and Chief Dale Bosworth to the committee this morning. We 
appreciate very much for their hard work over the past five years to 
ensure that our National Forest system is maintained in a manner that 
allows for the appropriate use our nation's forest resources and 
protects the health of our forests.
    I also want to commend you an your staff for the effort you have 
made throughout the Gulf Coast region following the Hurricanes Katrina 
and Rita to clear debris and establish emergency staging areas for the 
delivering of assistance in the form of shelter, food, and water to 
thousands of Gulf Coast residents who lost their homes. In recent years 
the Forest Service has had to deal with natural disasters throughout 
the nation, especially in regions that had large wildfires. This 
experience in emergency preparedness and assistance was evident with 
the quick and effective response of the forest service on the Gulf 
Coast.
    The hurricane Katrina also caused widespread damage to private as 
well as federal timber lands in Mississippi, Louisiana, and Alabama. 
Current estimates put the value of timber lost at over $1 billion. Much 
of this timber was located on private lands and these landowners have 
suffered a significant financial loss. The Forest Service and private 
landowners should work in a collaborative manner to ensure 
reforestation and restoration so this industry will be able to 
contribute throughout the South as one of our most important economic 
assets.
    In recent weeks we have seen a significant outbreak in forest 
wildfires due to the drought and the large fuel load that remains on 
the ground. I encourage the Forest Service to allocate the needed 
resources to help combat these fire outbreaks. Many of these forest 
lands are located next homes and schools in rural communities. These 
communities will need your help because much of their emergency 
response and firefighting equipment was destroyed by the Hurricanes.
    Another issue important to the Southeastern region of the United 
States is the research and treatment of insects and disease within our 
forests. In Mississippi, over 69 percent of the forestland is privately 
owned, and much of this land borders public forestlands. It is very 
important for the Forest Service continue the research and development 
of new management and treatment methods to better protect federal 
lands.
    Mr. Chairman, thank you very much for holding this hearing.

    Senator Burns. We will start voting here at around 10:30 
and there are four stacked votes and so, it would be very tough 
for us. Everybody said they're are going to be a 10- and 15-
minute vote, but don't count on that.

                            FOREST PLANNING

    But in the area, Chief, you know you joined us in Missoula, 
Montana at a very constructive hearing about forest planning 
and this type thing. As you know, we've got five forest plans 
covering 11 million acres in Montana, and that's being revised 
now. We received a lot of comments on that. Most of it during 
the hearing was concerned about public access and motorized use 
being further limited in our forest in Montana. Especially, in 
other words, consolidating and bringing down in concentrated 
areas which I think basically, does more damage to our forests, 
and the riparian areas, and the other erosion issues, than it 
does when we spread it out across the whole forest.
    Can you bring me up to date on the progress of those forest 
plans out there, right now? We were suppose to be updated late 
last fall and then we moved that back in the February area, and 
we haven't heard a lot from out there and gotten any kind of 
report.
    Can you give us a progress report on where we are and how 
we're progressing? It has to do with maintenance cuts, and 
Montana road closures, in our national forests, all of these 
issues come down to the forest planning idea.
    Mr. Bosworth. Well we're continuing work on the forest 
plans in Montana, as we discussed once before. The Beaverhead-
Deerlodge National Forest is proceeding using our old planning 
rule. We have three forests in western Montana--the Flathead, 
the Lolo, and the Bitterroot--that are using the new planning 
rule that we just completed.
    We expect those three forests to be coming out with their 
proposal here in the next few months. They are working very 
closely with the public. In fact, one of the things that I 
think the new planning rule does, is it enhances the ability of 
the public to work together with the Forest Service in 
developing the forest plans.

                           TRAVEL MANAGEMENT

    I would like to say a little bit about the off-highway 
vehicle use, because that's important to the people in Montana. 
We are implementing our new off-highway vehicle rule, and that 
requires that people remain on designated roads and trails or 
areas that have been designated. So in a collaborative way, 
we're working with the public to designate which of those roads 
and trails and I think that is working fairly well.
    It's always difficult to agree on any individual trail. Our 
purpose is to provide better access and sustainable access to 
the national forest. We don't want to end up with so much 
damage that the next generation of people can't be out there on 
the forest and enjoy it. We want to have a way that people can 
get out on these trails and on trails that have been designed 
for motorized vehicle use and get to the country that they want 
to get to.
    Most of the people, including organizations like the Blue 
Ribbon Coalition, support the notion that we have in our rule 
that would require designation of individual roads and trails 
or areas. We'll complete that designation in about 3.5 years.
    Senator Burns. That's a good idea, but then you know we've 
got to have the confidence that once we make the decisions on 
those areas that we don't close roads. Now, I'm getting 
complaints now from the State of Montana.
    Now there are certain times of the year when you close a 
road for a specific purpose and for a specific time. I'm 
getting complaints that they never open the road again. They 
just don't do it. So, I think we've got to work our way through 
some of those problems and then when we look at our 
maintenance, as far as the roads are concerned, that the ones 
that we're going to use we've got to cut back there and we want 
to try to maintain as safe a trail and a road as we possibly 
can for that specific traffic.
    So that's the things we're running into. When I talk to 
people who use the forest lands for snowmobiling, and hiking, 
and biking, and all of that kind of recreation.
    Mr. Bosworth. I would like to follow up a little bit on 
these roads where a gate's been closed and not reopened when 
it's a seasonal closure, because maybe I could work with your 
staff and find more specifically where that might be occurring. 
It's certainly our intention, that when we have a seasonal 
closure that's supposed to be closed on a certain day then 
opened on a following date that that is what we do.
    Now, from time to time, I'm sure that there's a situation 
where our folks haven't gotten out there on that day--a week 
late or something like that, but I don't want to see places 
where we're not opening those gates.
    Senator Burns. We know there could be extenuating 
circumstances. Mother Nature's a little fickle every now and 
again too, you know. We have to make a judgement call 
sometimes. But those complaints, we hear about that a lot.
    Mr. Bosworth. I'll be happy to get some more specifics on 
that. Because again as I say, it is our intention that we open 
those on the days that we say we'll open them.
    [Note.--Chief Bosworth agreed to discuss the issue of road 
closures with Senator Burns. Forest Service legislative affairs 
personnel have contacted Senator Burns' office to set up the 
meeting and are awaiting a date to discuss the issue.]

                     EARTH ISLAND INSTITUTE LAWSUIT

    Senator Burns. The Earth Island thing on categorical 
exclusions, I see in your budget justification that this case 
delayed or cancelled 723 fuel reduction projects, affecting 
over a million acres. Bring us up to date on the status of the 
litigation, and are you planning to appeal it if we get----
    Mr. Rey. The litigation is under appeal now. The District 
Court decision is under appeal before the 9th Circuit. Given 
the average turnaround time for a 9th Circuit decision, I'm not 
optimistic that we'll get any kind of a response during this 
upcoming operating season.
    Senator Burns. Is there anything you can do in light of 
that appeal? Can you do some things that would facilitate 
moving some of those projects forward?
    Mr. Rey. We will move some of those projects forward, but 
those that garner objections will be delayed by the normal 
appeals process.

                     BARK BEETLE DAMAGE IN MONTANA

    Senator Burns. I would say, I really feel like the most 
dangerous thing, Mr. Secretary, is this bark beetle, not only 
in Colorado. I would just invite anybody to drive over 
Homestead Pass, between Whitehall and Butte, and then look 
south and just absolutely cry, and then go into the Yak and 
just absolutely sit down and cry that we cannot, some way or 
another, deal with these stressed trees and thinning the 
things--the management things that's going to take to care of 
that particular problem.
    I have some more questions to ask of you.
    Do you have anything to add, Senator Allard, you want to 
talk about right now, or are you going to do it in private 
conversations?
    Senator Allard. I have some more questions if you need me 
to fill time.

                         WILDLAND FIRE PROGRAM

    Senator Burns. We don't need anymore fill time here. I'm 
going to ask you some other questions, but I'll do it and your 
response can be to the committee and be made a part of the 
committee record. Wildland fire outlook this year? Any 
forecasts?
    Mr. Rey. The forecast this year, is this will probably be a 
more difficult season than the last two. Particularly in the 
Southwest.
    Senator Burns. I know our snow pack in Montana has never 
been better, it's really good this year. Fire readiness 
capability, I think we want to talk about that and I think we 
also want to iron out this difference between State and 
volunteer fire assistance that you've got in your budget this 
year, and take a look at that. The outlook is good.
    But those are the areas where I think I had my primary 
concerns and I'll do that. We'll sit down. When you go by his 
office, we'll schedule my office. We don't want you to work a 
half of a day.
    [Note.--Senator Burns asked Chief Bosworth to have a 
meeting to discuss several issues related to the Wildland Fire 
Management program. Forest Service legislative affairs 
personnel have contacted Senator Burns' office to set up the 
meeting and are awaiting a date to discuss the issues.]
    Senator Burns. Senator Allard?
    Senator Allard. Well, Mr. Chairman, thank you. I would like 
to voice many of the same concerns that the chairman is 
voicing.

                           TRAVEL MANAGEMENT

    In the Rocky Mountain Region there are a lot of things that 
have happened that commonly effect, I think both Montana and 
Colorado. The question I have that I would like to ask here is, 
how much does the U.S. Forest Service anticipate the travel 
management, that is the designating of routes and areas for 
motor vehicle use to cost to fully implement nationwide. 
Specifically, what budgets within the U.S. Forest Service will 
funds be allocated in order to implement the travel management 
designated routes and areas for motor vehicle use. Do you 
happen to have that information?
    Mr. Bosworth. In terms of the kinds of dollars we would use 
normally, you would think that recreation would be an area that 
would be funding part of that work. There are also a number of 
other functional areas that benefit from doing a better job of 
managing off highway vehicle use.
    For example, water quality can be improved if we're doing a 
better job of keeping machines out of streams. Wildlife habitat 
can be improved if we're more careful about which trails and 
roads we allow motorized vehicles.
    So we expect that a number of different budget line items 
will contribute to the planning and to the implementation of 
managing off highway vehicles.
    As far as the total cost per forest, I could get you the 
best information if you give me a little bit of time to do 
that.
    Senator Allard. That would be helpful I think, particularly 
in my State. We'd be interested in knowing how that breaks out.
    Mr. Bosworth. I'd be happy to do that.
    Senator Allard. Very good.
    [The information follows:]

                   Cost of Travel Management Planning

    The Forest Service has estimated that nationally we will spend 
between $15 and $35 million per year over the next 4 years on travel 
planning. These costs only include travel planning costs associated 
with identifying a system of designated roads, trails, and areas. Costs 
on each national forest will depend not only on the local environment 
and local use, but on each unit's history of travel planning. Some 
national forests have recently completed comprehensive travel plans, 
while others are just beginning. These figures represent an average 
cost of $600,000 to $1.5 million per national forest to complete a 
travel plan from start to finish. On most national forests, travel 
planning will require a substantial effort, including environmental 
analysis and documentation prepared in an open, collaborative process. 
Although specific costs for travel management plans for each of the 
national forests in Colorado is not available, they are expected to be 
in the range stated above.
    Since travel planning serves multiple purposes, funding may be 
derived from a variety of Forest Service appropriations depending on 
the primary purposes served at the local level. Among the principal 
programs and appropriations associated with travel planning are: Roads; 
Trails; Recreation, Heritage and Wilderness; Wildlife and Fisheries 
Habitat Management; and Vegetation and Watershed Management.

    Senator Burns. One personal thing, are we still working on 
that little thing with Mack White?
    Mr. Bosworth. We're still working on that with Mack White. 
The Regional Forester has been in negotiations.
    Senator Burns. Will you tell him--be like Larry the Cable 
Guy--git er done and don't ask for any icing on the cake. We're 
just dealing with the cake right now. But I appreciate that and 
your efforts there.

                         ADDITIONAL STATEMENTS

    We have received statements from Senator Larry Craig and 
the Society of American Foresters that will be made part of the 
hearing record.
    [The statements follows:]
               Prepared Statement of Senator Larry Craig
    The President's budget reflects our nation's clear priorities for 
this year: win the war on terror, reduce budget deficits by reining in 
spending, create jobs and grow the economy, and boost America's energy 
independence.
    In short, this budget is ``leaner and meaner.'' And in the end, I'm 
hopeful it will translate into a more efficient government.
    I've been very vocal about my support for the Secure Rural Schools 
and Communities Act, but I want to reiterate my thanks to the President 
for including funding for this important program in his budget request. 
However, I do have significant preliminary concerns about the offsets 
proposed by the President, and I look forward to receiving additional 
details and working with the administration.
    Since the last Forest Service budget hearing, I have some new 
questions I'm hoping to have answered regarding the agency's new travel 
management rule. Recreation is an important quality of life issue for 
my constituents and I want to assure them that access will be 
maintained to our national forest lands. Additionally, it is important 
to note that the Forest Service is not in the business of closing roads 
for the purpose of saving money.
    Idaho's Parks and Recreation Department has provided an exceptional 
amount of assistance to our federal land agencies doing trail 
maintenance and construction. We have recreational groups who have 
shown interest in an ``adopt a trail'' program to help the Forest 
Service do trail clearing and maintenance. I would like to have it on 
record that Idahoans are doing their part, from our State agencies to 
public land users, and I do not want those efforts to be overlooked.
    Overall, I am pleased with the distribution of funds to the various 
accounts. I feel we need to continue to focus on fire preparedness and 
suppression; however, with a decrease in rehabilitation and 
restoration, I am curious about the President's proposal to continue to 
manage our public lands in a sustainable way after the fires come--and 
the fires will come.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    The Society of American Foresters (SAF), representing over 15,000 
forest managers, researchers, and educators, supports sound management 
and stewardship of the nation's 749 million acres of forestland. We 
offer the following suggestions to facilitate improved stewardship and 
management of the nation's forests through funding for forestry 
programs within the U.S. Forest Service and the Department of the 
Interior, Bureau of Land Management. Given the understandable 
restrictions on the length of our testimony, we do not offer the in-
depth analysis we normally provide but would be pleased to provide 
further detail upon request.
    Today, the nation's forest face serious threats--threats that will 
affect the provision of clean water and air, wildlife habitat, 
recreation opportunities, forest products, and scenic beauty. Congress 
is faced with serious budget challenges and funding is extremely 
limited. In recognition of this, we've limited our funding 
recommendations to three priority areas even though there are many 
important forestry programs within USDA and USDOI. The priority areas 
are:
  --Forest Research and Inventory
  --Forest Health on both public and private forestlands
  --Family forestland Management

                     FOREST RESEARCH AND INVENTORY

    The key to good stewardship and sustainable, long-term management 
of the nation's forests is sound scientific information. Forestry 
professionals must have the latest information on the state of forests, 
as provided by the Forest Inventory and Analysis program, and have 
access to new techniques and new research that will ensure they can 
continue to be good stewards in the constantly changing forest 
environment. We are deeply concerned with continuous declines in forest 
research capacity in the public and private sectors. Since the mid-
80's, forestry research capacity in the U.S. Forest Service has 
declined by 50 percent and unfortunately, the private sector and 
universities are facing similar downsizing. At the same time, federal 
investment in other research, including USDA's National Research 
Initiative which does not adequately provide for forestry research, has 
increased.
    This decline in forestry research is contrary to the critical 
importance of the nation's forests in global trade and in ensuring 
national health and welfare. We strongly urge sustained long-term 
funding for forestry research and inventory, including full funding for 
the Forest Inventory and Analysis program, to ensure the United States 
retains its capacity to manage and improve forests and the associated 
values and benefits.

                             FOREST HEALTH

    Across the country, over 190 million acres of federal forests and 
millions of acres of non federal forests, suffer from severe forest 
health issues and are threatened by catastrophic wildfires due to lack 
of management, insect and disease epidemics, climatic conditions, 
historical fire suppression practices, and other causes. Insect and 
disease problems include invasive species like the emerald ash borer, 
gypsy moth, and asian longhorned beetle; other insects like southern 
pine beetle and mountain pine beetle; and diseases like sudden oak 
death and white pine blister rust. To address these threats, we 
strongly urge increases above fiscal year 2006 levels for forest health 
management and sustained funding for wildfire management accounts in 
both the USDA Forest Service and Bureau of Land Management.
Biomass Utilization
    The President's budget proposes $5 million within the hazardous 
fuels line item to support biomass utilization grants. Biomass 
utilization offers a mechanism to address costly forest health issues 
and recover economic value from small diameter and unmerchantable wood. 
In addition to these forest benefits, biomass utilization can help 
reduce the nation's reliance on foreign oil imports and increase the 
use of renewable energy sources, a goal emphasized by the President and 
supported by the passage of the 2005 Energy Bill. We urge you to fund 
biomass utilization within the hazardous fuels program at $10 million, 
to help foster utilization and development of markets for this material 
and assist in achieving forest health U.S. energy security goals.
Wildfire Suppression Funding
    We greatly appreciate the Appropriations Committee's work to 
address the funding problems that have plagued wildfire suppression 
accounts in the Forest Service and Department of the Interior. Since 
steps were taken by your Committee and the Budget Committees to provide 
$500 million in emergency suppression funding, the agencies have not 
had to borrow from other accounts and disrupt the work of other 
important federal forestry programs. We urge you to continue to monitor 
this issue and provide additional emergency funding when necessary. In 
addition, we urge you to continue to monitor the Forest Service and 
Department of the Interior's cost containment efforts, to ensure 
progress is being made in this area.
Hazardous Fuels
    We strongly support the President's proposal to increase the U.S. 
Forest Service's funding for hazardous fuels reduction. We encourage 
the use of these funds in areas where Community Wildfire Protection 
Plans have recommended treatments. We are concerned with the $10 
million decrease in hazardous fuels reduction funding for the 
Department of the Interior. This decrease would result in an estimated 
32,000 acre reduction in fuel treatments, 17,000 acres in the Bureau of 
Land Management alone. Ultimately, the undesirable consequences will be 
increased risk of catastrophic wildfire and insect and disease 
outbreaks. We urge you to fund DOI's hazardous fuels program at fiscal 
year 2006 enacted levels..

                      FAMILY FORESTLAND MANAGEMENT

    With the future of 48 percent of the nation's forests in the hands 
of over 10 million family or non-industrial landowners, it is critical 
that this land remain forested. Family forestland owners are faced with 
severe challenges today, when owning forestland is often uneconomical 
and development pressures are fierce. A significant turnover in 
ownership of family forests is expected to occur over the next decade, 
creating a great deal of uncertainty as a new, younger generation 
decides what to do with their forests. Family forests supply 
approximately 60 percent of the nation's wood products. However only 3 
percent percent of landowners have a written management plan and only 
22 percent have sought professional advice prior to harvesting timber. 
These lands must be well managed with advice from professionals to 
avoid losses in productivity which make them susceptible to conversion 
to nonforest uses. To keep these lands forested, we must ensure that 
family forestland owners have access to professional advice and that 
these forests remain under sound management and stewardship. There are 
a variety of federal forest programs that assist in accomplishing this 
goal. The Forest Stewardship Program and Forest Legacy Program are 
critical to maintaining and improving private family forests. We urge 
you to increase funding above fiscal year 2006 levels for these 
programs as shown below.

           FUNDING RECOMMENDATIONS FOR THE U.S. FOREST SERVICE
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year--
                              ------------------------------------------
 Discretionary appropriations                   2007
                                   2006       proposed       2007 SAF
                                 enacted       budget    recommendations
------------------------------------------------------------------------
Forest and Rangeland Research        219.6        208.5          220.0
 \1\.........................
Forest Inventory and Analysis         64.0         59.3           73.4
 Total \2\...................
State and Private Forestry:
    Forest Health Management--        53.4         49.8           56.0
     Federal.................
    Forest Health Management--        46.9         34.5           49.0
     Cooperative.............
    State Fire Assistance....         32.9         27.0           32.9
    Volunteer Fire Assistance          5.9          5.9            5.9
    Forest Stewardship                34.2         33.9           37.0
     Program.................
    Forest Legacy Program....         56.5         61.5           61.5
    Urban and Community               28.5         26.8           28.5
     Forestry................
    International Forestry...          6.9          4.9            7.0
National Forest System:
    Land Management Planning.         58.2         55.6           58.2
    Inventory and Monitoring.        167.7        154.1          154.1
    Forest Products..........        280.2        310.1          310.1
Wildland Fire Management:
    Preparedness.............        666.1        655.9          655.9
    Fire Operations..........        690.2        746.2          746.2
    Hazardous Fuels..........        281.8        291.8      \3\ 291.8
    Rehabilitation and                 6.2          2.0            7.0
     Restoration.............
    Fire Research and                 22.9         20.1           22.9
     Development.............
    Joint Fire Sciences                7.9          4.0            8.0
     Program.................
    Forest Health Management--        14.8          6.8           15.0
     Federal.................
    Forest Health Management--         9.9          4.6           10.0
     Cooperative.............
    State Fire Assistance....         45.8         29.1           45.8
    Volunteer Fire Assistance          7.8          7.8            7.8
------------------------------------------------------------------------
\1\ Totals do not include FIA funds which are broken out in the next
  line.
\2\ Includes funding under State and Private Forestry and Research and
  Development.
\3\ Funding would include $10 million for biomass utilization, see above
  narrative.


        FUNDING RECOMMENDATIONS FOR THE BUREAU OF LAND MANAGEMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year--
                               -----------------------------------------
            Program                 2006         2007        2007 SAF
                                  enacted      proposed   recommendation
------------------------------------------------------------------------
Wildland Fire Management:
    Preparedness..............        268.8        274.8          274.8
    Suppression...............        230.7        257.0          257.0
    Hazardous Fuels...........        208.1        199.8          208.1
    State and Local Fire                9.9  ...........           10.0
     Assistance...............
    Joint Fire Science........          5.9          5.9            6.0
    Public Domain Forest               10.4         10.5           10.5
     Management...............
    OR and CA Grant Lands             108.6        112.4          112.4
     Total....................
------------------------------------------------------------------------

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. Thank you this morning for your appearance 
before this committee. There will be other questions from other 
committee members. If you would respond to them and to the 
committee, we'd surely appreciate that. The record will be left 
open for a couple of weeks if you want to make further 
comments.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

    Question. In an overall Forest Service budget that is cut by over 
$100 million, the agency proposes an increase of roughly $71 million in 
appropriated dollars to fully implement the Northwest Forest Plan that 
was created under the Clinton administration.
    The Committee is sympathetic to the communities that lost timber 
jobs in the Northwest, but in a budget that is so full of major cuts to 
core national programs, isn't this an awfully large increase for one 
region of the country?
    Answer. The fiscal year 2007 Budget reflects the President's 
commitment to providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening our 
homeland defenses, and sustaining the momentum of our economic 
recovery. This has required difficult decisions to be made. Forest 
health is a priority for the administration and the Forest Service is 
committed to addressing the issue across the Nation. In this context, 
the administration is committed to fully funding the Northwest Forest 
Plan. The additional funding for the Northwest Forest Plan will allow 
the agency to offer 800 MMBF of timber volume, improve over 3,900 acres 
of terrestrial wildlife habitat and 120 miles of fisheries habitat, 
treat hazardous fuels in the wildland-urban interface and municipal 
watersheds, and address reforestation needs of recent large forest 
fires.
    Question. What is the impact on other Regions of the Forest 
Service?
    Since the overall budget is cut, will other Regions receive less to 
pay for this proposal?
    Answer. The agency is committed to funding all regions at similar 
levels to fiscal year 2006 through a combination of Hazardous Fuels and 
Forest Products funding. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation.
    Question. The timber sales program in this part of the country is 
especially controversial and many sales are challenged in court. Are we 
getting the best bang for the buck by putting so many additional 
dollars here, or are there other places where these funds could be 
spent and get more timber sales accomplished?
    Answer. The administration is committed to fully funding the 
Northwest Forest Plan. Cost efficiency is not the only consideration in 
allocating the Forest Products line item. For example, increasing 
timber sales increases the amount of receipts shared with the States 
and reduces outlays from the Treasury for payments authorized for the 
Secure Rural Schools and Community Self-Determination Act. The Forest 
Products line item is an important source of funding in meeting 
resource needs, addressing forest health and community protection 
issues, contributing to local economies and maintaining local industry 
infrastructure. The allocation of the Forest Products line item takes 
into consideration these resource and community concerns and the 
allocation of other line items. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation.
    Question. There is a real problem with a backlog of expiring 
grazing permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions Act. 
Your budget justification says that you're only getting done 50 percent 
of the work that you need to do each year to comply with the schedule. 
The schedule requires all allotments to be completed by 2010.
    The agency's fiscal year 2007 budget proposal reduces the grazing 
program by $8.5 million and the number of grazing allotments processed 
declines by 34 percent--from 484 allotments this year to 321 next year. 
Why is that a good idea when we still have over 3,200 allotments 
needing to be processed?
    Answer. In 1996, the Forest Service established a 15-year schedule 
for completing NEPA on all allotments where it was not current, in 
compliance with the Rescissions Act of 1995. It was an ambitious 
schedule that the agency had wanted to expeditiously complete. Due to a 
number of issues, such as appeals and lawsuits, the agency has not been 
able to maintain pace with the 1996 schedule. At this point, the agency 
has completed nearly 54 percent of the NEPA needs. In 2005, Congress 
authorized the Forest Service to use Categorical Exclusions on 900 
allotments, to expedite the NEPA work. This new authority will speed 
the progress towards achieving the agency's obligations as set forth in 
the allotment schedule.
    Question. In the fiscal year 2005 Interior appropriations bill, the 
committee provided additional funds to address the backlog of 
allotments and also provided a Categorical Exclusion from NEPA for 
grazing allotments that met certain conditions. There was a cap of 900 
allotments on this authority.
    How many allotment decisions have been made using this authority so 
far?
    Answer. The Forest Service has used this authority for 44 
allotments since its initiation. The agency anticipates using this 
authority to complete another 100-200 by the end of fiscal year 2006.
    Question. Is this authority helping to speed up the process?
    Answer. Yes, this authority has helped speed up the process. On 
those allotments where we have not proposed changes to the management 
and the conditions are either meeting or moving towards what is 
described in our land management plans, it reduces the amount of time 
needed to go through the analysis and decision making process to get a 
decision.
    Question. Does this cap need to be raised so you can get more 
allotments processed that meet the standard for use of this authority?
    Answer. No, not at this time. Forest Service staff is assessing 
what the agency can do in using the CE authority in fiscal year 2006 
and fiscal year 2007. Based upon preliminary information, it is highly 
unlikely that we will need to have the cap raised.
    Question. The administration has proposed extending the Secure 
Rural Schools Act--the last payment will be made under the act in 
December 2006--by selling roughly 310,000 acres of National Forest 
System lands to generate $800 million in revenue. In Montana, 13,948 
acres are eligible for sale. The administration's proposal would 
gradually phase out payments over a 5 year period.
    Doesn't the agency think it's unwise to sell our National Forest 
System lands to fund a program that deserves funding on its own?
    Answer. The original Secure Rural Schools (SRS) legislation was 
designed to be a transitional measure to allow States and counties to 
readjust their priorities and programs so that they are no longer 
dependent on a higher level of funding from national forest receipts. 
Currently there are counties at different stages of making this 
transition. Consistent with this situation and need, the administration 
is proposing to provide a funding source for the next 5 years to enable 
a longer period for States and counties to make the transition before 
the program is phased out as originally contemplated.
    Conveyance of a limited number of National Forest System acres will 
offset payments for the Secure Rural Schools program if reauthorized. 
This focused approach will provide an adequate revenue source to 
support Secure Rural Schools. Baselines of both the Congressional 
Budget Office and the Office of Management and Budget reflect the end 
of this program, so in order to provide the necessary offset to the 
Treasury to extend this program, any proposal to extend it would have 
to provide a suitable offset that would ``score'' by either reducing 
direct spending from the Treasury or by providing a new source of 
receipts to the Treasury. The proposal was sent to both the Senate and 
the House on March 22, 2006 for consideration by the Congress.
    Question. Since over 75 percent of the money under the Secure Rural 
Schools Act goes to Oregon, California, and Washington, why would 
people in other States want to sell off their public lands when most of 
the proceeds wouldn't even stay in their States?
    Answer. The Budget underscores the President's commitment to States 
and counties impacted by the ongoing loss of receipts associated with 
lower timber harvests on Federal lands--not only in the Pacific 
Northwest but throughout the United States. Counties throughout the 
United States have received payments under the current County Payments 
Act and would continue to do so in the Budget's legislative proposal, 
so it is reasonable to identify parcels nationally that could be 
eligible for sale. Regardless of location, sales will be limited to 
those parcels identified as suitable for conveyance, because they are 
isolated or inefficient to manage, in existing national forest plans 
which were subject to public review and comment. These do not include 
parcels of high environmental value such as wilderness, wild and scenic 
rivers, or habitat for threatened or endangered species.
    The initial list of potentially eligible parcels for conveyance 
under the proposed authority is approximately 300,000 acres. The actual 
number of acres will not be known until specific properties are 
identified, appraised, and conveyed and parcels have gone through the 
public review process outlined in the Federal Register. Based upon 
average land values, it should require the sale of approximately 
200,000 acres to provide $800 million in receipts that the proposal 
identified to fund the Secure Rural Schools program for an additional 
five years.
    Question. Given budget constraints that the Congress has to deal 
with, future acquisitions of public land will have to rely more on land 
exchanges rather than through appropriated dollars from the Federal 
Government. Wouldn't getting rid of many of these isolated parcels take 
away a key bargaining chip for doing future land exchanges?
    Answer. The tracts identified as potentially eligible for sale 
could also be considered for exchange. However, many field units forego 
land exchange opportunities unless they expect to achieve significant 
gains in resource quality and protection. Selling many of the types of 
parcels identified can provide for a lower cost method of achieving the 
benefits associated with the disposal of isolated tracts, in 
particular, a reduction of boundary survey and maintenance costs and 
expenses related to encroachment resolution. There will still be many 
opportunities for land exchanges involving other National Forest System 
lands and, coupled with land purchases and donations, will still allow 
for the acquisition of high priority tracts within the National Forest 
System.
    Question. According to the agency's proposed budget, the Forest 
Service has a backlog of deferred maintenance of over $8 billion. But 
your budget proposes to cut the overall Capital Improvement and 
Maintenance accounts by 12 percent. The Roads account alone is cut by 
over $39 million which is a 17.8 percent cut.
    Why is the agency cutting this account when the backlog of deferred 
maintenance needs is so high?
    Answer. The fiscal year 2007 Budget reflects the President's 
commitment to providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening our 
homeland defenses, and sustaining the momentum of our economic 
recovery. This has required difficult decisions to be made. In this 
context, even though the amount of funds provided for deferred 
maintenance is not large, they provide a meaningful and direct benefit 
to the agency's priority activity of reducing deferred maintenance, 
particularly critical health and safety related deferred maintenance 
needs. The Budget also reflects funding generated through the use of 
authorities provided by the Congress to assess the costs of facilities 
maintenance and the sale of certain administrative sites. This will 
permit the agency to reduce its maintenance backlog by 25 percent by 
2010. The funds are slowing the rate of increase in deferred 
maintenance.
    Question. How are you planning to address this enormous backlog of 
deferred maintenance?
    Answer. The Forest Service is modernizing and realigning 
infrastructure to match its mission, organizational structure changes, 
and funding expectations.. To aid in the realignment and to minimize 
our backlog of deferred maintenance, the agency is using some important 
new tools:
    (1) The agency is using the Facilities Realignment and Enhancement 
Act authorities to dispose of unneeded buildings, and using the 
proceeds to reduce deferred maintenance or construct new buildings that 
meet current needs. The agency has planned $100 million in sales over 
the next 2 years.
    (2) The agency is using the cost pool methodology to give forests 
an incentive to reduce unneeded facilities.
    (3) We are working with States to improve our trails program 
through grants of funds provided by SAFETEA-LU's recreation trails 
program.
    (4) The November 9, 2005, Travel Management Rule provides a process 
to identify the minimum road system required considering the 
availability of resources for maintenance and administration of roads 
and trails proposed to be designated for motor vehicle use. The 
analysis will guide the optimum use of available funding, so that the 
highest priority roads and trails will be sustained or in some cases, 
improved. In some cases, roads and trails may be operated at a lower, 
less costly level. For example, many passenger vehicle roads will be 
converted to high clearance vehicle roads.
    Question. What are the impacts to recreational users and the 
firefighting program if we don't have the money we need to maintain the 
roads and provide access to our national forests?
    Answer. Each national forest conducts ongoing travel management 
analysis to guide the optimum use of allocated funding, so that the 
highest priority roads and trails will be sustained or improved. 
Recreation and fire suppression access needs are important components 
in determining the optimum transportation system to sustain with 
anticipated funding. Collectively, road operational standards will 
continue to decrease, and the overall consequences to the 
transportation system can be minimized through advanced planning and 
appropriate use of available funding.
    Question. A Federal District court in the Earth Island Institute v. 
Ruthenbeck case held that the Forest Service had to provide notice, 
comment, and appeal on projects implemented through the use of 
categorical exclusions. This judicially created requirement regarding 
CEs applies to no other agency in the Federal Government.
    The agency's budget justification indicates that this case delayed 
or canceled 723 fuels reduction projects affecting over 1 million 
acres. What is the status of this litigation?
    Answer. On September 4, 2005 the Government appealed the July 2, 
2005, decision from the Eastern District of California to the Ninth 
Circuit Court of Appeals.
    Question. Are you planning to appeal?
    Answer. On September 4, 2005 the Government appealed the July 2, 
2005 decision from the Eastern District of California to the Ninth 
Circuit Court of Appeals. The case is fully briefed and awaiting oral 
argument before the Circuit. Recently, a second court held that a 
categorically excluded decision must be subjected to notice, comment, 
and appeal. See Wilderness Society v. Rey, CV 03-119 DMW (D. Mont. 
Decided April 24, 2006). The deadline for filing an appeal in that case 
is June 23, 2006.
    Question. Is there anything you can do administratively to address 
this situation or is a legislative fix needed so that the Forest 
Service is treated like every other agency when it comes to the use of 
categorical exclusions?
    Answer. Sixteen cases have been filed challenging the Forest 
Service's promulgation or implementation of the 2003 regulations issued 
under the Appeal Reform Act. The Government is actively defending all 
pending cases and has appealed the Earth Island ruling.
    Question. The committee is concerned about the large cut ($28.9 
million which is equal to 23 percent) that is proposed in your budget 
for the Forest Health program. This program helps to monitor and treat 
millions of acres of State, Federal, and private lands for insects, 
diseases and invasive weeds.
    How many fewer acres will be treated as a result of these cuts?
    Answer. While the President's Budget for forest health activities, 
funded in the Forest Health Management budget lines and the National 
Fire Plan (Wildland Fire Management appropriation), reflects a decrease 
from the fiscal year 2006 enacted level, it is an increase of $11.9 
million over last year's President's Budget. Approximately 628,000 
fewer acres will be treated than the currently planned treatments in 
fiscal year 2006.
    Question. How many acres nationally need treatment for insects and 
disease?
    Answer. The latest revision of the National Insect and Disease Risk 
Map estimates that 56.6 million of the 748.7 million acres of forest 
land in the continental United States and Alaska is at risk from 
insects and diseases. Most of this hazard can be attributed to 44 
indigenous and 14 non-native (exotic) forest pest species already 
established in the coterminous United States. Many of these lands at 
risk will not be treated because of ownership, value, or designation 
such as wilderness.
    Question. Congress recently passed Healthy Forests legislation. If 
we're going to have a healthy forests program, doesn't that mean we 
need to put adequate funds into the agency's forest health programs 
rather than cut them?
    Answer. The Healthy Forests Restoration Act (HFRA) provides the 
land management agencies with needed authorities that will expedite 
treatments and thereby permits the Forest Service to be more efficient. 
The fiscal year 2007 Budget reflects the President's commitment to 
providing the critical resources needed for our Nation's highest 
priorities: fighting the war on terror, strengthening our homeland 
defenses, and sustaining the momentum of our economic recovery. This 
has required difficult decisions to be made. In this context, while the 
President's Budget for forest health activities, funded in the Forest 
Health Management budget lines and the National Fire Plan (Wildland 
Fire Management appropriation), reflects a decrease from the fiscal 
year 2006 Enacted level, it is an increase of $12.1 million over last 
year's President's Budget, and the Budget reflects the enhanced 
efficiencies provided by HFRA. The President's Budget recognizes the 
importance of maintaining forest health technical assistance to Federal 
and nonfederal land managers and maintaining forest health monitoring 
activities and meeting the highest priority pest suppression needs on 
Federal lands, while relying on nonfederal partners to continue to 
share more of the cost of pest suppression on State and private lands. 
Further, the Budget reflects significant increases elsewhere for other 
activities that improve the health and vitality of national forests. 
For example, funding for Forest Products increases by $30 million (+11 
percent) and Vegetation and Watershed Management increases by $6 
million (+3 percent). President Bush is allocating $610 million in the 
2007 budget to continue implementation of the Healthy Forests 
Initiative to reduce hazardous fuels and restore forest health. The 
budget proposal, more than a $12 million increase over 2006, takes an 
integrated approach to reducing hazardous fuels and restoring forest 
and rangeland health. Along with more than $301 million provided to the 
Department of the Interior, the 2007 budget provides a total of nearly 
$913 million to implement the Healthy Forests Restoration Act.
    Question. The State fire assistance program is very important in 
providing grants for equipment and giving technical assistance to rural 
fire departments. The fiscal year 2007 budget request proposes to 
reduce this program by $22.7 million. This is a 25 percent reduction. 
To put this in more practical terms, this will reduce the number of 
communities receiving grants and technical assistance by over 5,300.
    Is this a wise cut when frequently it's the local firefighting 
forces that are first on the scene of a wildfire?
    Answer. The Forest Service supports efforts to improve firefighting 
readiness, and recognizes the primacy of State and local governments in 
providing these essential services to their citizens. In additional to 
Forest Service financial assistance, the Forest Service will continue 
to work with local communities and the State foresters with an emphasis 
on community wildfire protection planning and coordination on FEMA 
hazard mitigation plans, hazardous fuels treatments in the critical 
wildland-urban interface, and building fire preparedness at the State 
and local level remain priorities. The implications of reduced levels 
of funding in State Fire Assistance will vary from State to State. 
Generally, depending on the capability of each State, there may be less 
overall funding for preparedness at the State and local level to 
provide initial attack and extended attack assistance to Federal 
firefighting resources on Federal fires. Depending on the funding 
capabilities of the States and local communities, hazardous fuel 
treatments on the State and private portions of the wildland-urban 
interface may be reduced over prior years. Some of that reduction may 
be offset by proposed increases in hazardous fuel accomplishments on 
national forest acres in the wildland-urban interface.
    Question. Over the last several years, the committee has had some 
difficulty working with the agency on funding for the Fire Preparedness 
budget. This is the program that puts in place firefighters, engines, 
and other basic firefighting assets at the start of the fire season. In 
the budget for fiscal year 2007, you have reduced the program by over 
$10 million but your budget claims that you will still be able to 
suppress 99 percent of fires during initial attack- that is, before 
they get over 300 acres.
    With the rising costs of fuel and aviation assets, can the agency 
assure the committee that even with a $10 million cut in preparedness 
that you can maintain readiness in terms of the number of firefighters 
and engines at current levels?
    Answer. In fiscal year 2007, the Forest Service will maintain a 
level of readiness, including firefighters, comparable to that attained 
in fiscal year 2005 and planned for fiscal year 2006. The agency will 
achieve efficiencies through program leadership and a reduction in 
agency-wide overhead.
    Question. A number of fires have been in the news already this year 
in Texas, Arizona, and Colorado to name a few. Many places in the 
Southwest, like Arizona and New Mexico are really suffering from lack 
of precipitation.
    How severe do you expect this fire season to be based on what you 
know now?
    Answer.
   National Wildland Fire Outlook, National Interagency Fire Center, 
           Predictive Services Group, Issued: April 12, 2006
           wildland fire outlook--april through august, 2006
    Fire potential is expected to be significantly higher than normal 
over portions of the West, Alaska, Great Plains, Gulf Coast and the 
East due to the following factors:
  --Above average rain and snow in northern and central portions of the 
        West will temper fire potential in the forests. Conversely, a 
        dry winter in the Southwest and Alaska has increased the risk 
        of wildfires this spring and summer. In addition, the Southwest 
        and Great Basin have abundant carryover fine fuels from the wet 
        2004/2005 winter. This will elevate fire potential due to 
        increased fuel loading and a continuous fuel bed for rapid fire 
        spread. Long-term drought and associated bug-killed vegetation 
        continue to elevate fire potential in portions of the West.
  --Very dry conditions in the Southern Plains, Southeast and Eastern 
        States will keep fire potential high until summer thunderstorms 
        provide ample rainfall to diminish the fire threat.
  --Alaska is expected to have another above normal fire season with 
        the main areas for concern in the Southwest, western Kenai 
        Peninsula and around the Delta Junction area southeast of 
        Fairbanks.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Question. How much money does the agency have available in its fire 
suppression accounts for firefighting this year?
    Answer. The Forest Service did not find it necessary to use the 
emergency reserves in 2005 and carried over a suppression balance of 
$501 million to fiscal year 2006. Along with the fiscal year 2006 
suppression appropriation of $698 million, the agency has an 
approximately total of $1.2 billion available for fiscal year 2006.
    Question. Would the agency expect that you may have to borrow 
against other non-fire accounts that caused so much disruption to 
agency programs a few years ago?
    Answer. For fiscal year 2006, the agency retained about $500 
million in fiscal year 2005 unobligated Wildland Fire Management funds. 
Those funds, in addition to the fiscal year 2006 appropriation of $690 
million provide a little less than $1.2 billion for fire suppression. 
Fire suppression costs have only exceeded $1.2 billion once in the last 
10 years, therefore the funding should be sufficient to fund this 
year's fire suppression needs.
    Question. The Chief has identified unmanaged recreation as one of 
the four major threats to our national forests. The subcommittee is 
hearing from the public in Montana that many local managers are locking 
gates on roads for seasonal closures but are not opening them back up 
when the closure expires. This is encouraging illegal use as folks are 
driving around closed gates that should be open.
    Has the agency heard anything about this problem?
    Answer. We are not aware of the problem as described. While we 
recommend that road closure issues be addressed at the local level, we 
are concerned about the problem as stated and request more specific 
information you can provide.
    Periodically, there are good reasons to extend a closure for safety 
or to protect resource values. Two common examples are unstable road 
surfaces during spring rains or late break-up and blocked access due to 
late snowpack in the high country. In such cases, the public needs to 
be notified in advance of extending the closure.
    Question. Is this something that the agency can look into and make 
sure that when seasonal closures expire that these roads are re-opened?
    Answer. As stated in the answer to question 25, there are cases 
where seasonal closures must be extended for public safety and resource 
protection reasons. In such cases, we expect that the public be 
notified in advance of the extension. If you have any more specific 
information on the situation described, we will be better able to 
pinpoint problems and develop a prompt solution.
    Question. There is a tremendous problem in Montana with bark beetle 
infestations. Recent figures indicate that since 1999 in Region 1, bark 
beetle infested acres have increased from 400,000 acres to more than 
1.7 million acres. This has caused enormous forest health problems and 
greatly increased fire danger.
    With this kind of massive epidemic of bark beetle infestations can 
you explain the rationale for cutting the money devoted to bark beetle 
management in half--from $32 million to $16 million?
    Answer. The fiscal year 2007 President's Budget includes $14 
million in the Forest Health Management budget lines for the control of 
western bark beetles ($7 million) and the southern pine beetle ($7 
million). Although funding for western bark beetle suppression projects 
in Western States, including Montana, is 28 percent less than the 
enacted budget for fiscal year 2006, it is more than 50 percent higher 
than the fiscal year 2006 President's Budget. At the proposed funding 
level, management projects for western bark beetles will be conducted 
on 33,500 acres of Federal and cooperative lands across the West. 
Efforts to mitigate beetle-caused mortality will include using 
environmentally sensitive strategies such as pheromones and preventive 
thinning of stands to reduce risk before an outbreak occurs. Further, 
the Budget reflects significant increases elsewhere for other 
activities that improve the health and vitality of national forests. 
For example, funding for Forest Products increases by $30 million (+11 
percent) and Vegetation and Watershed Management increases by $6 
million (+3 percent). President Bush is allocating $610 million in the 
2007 budget to continue implementation of the Healthy Forests 
Initiative to reduce hazardous fuels and restore forest health. The 
budget proposal, more than a $12 million increase over 2006, takes an 
integrated approach to reducing hazardous fuels and restoring forest 
and rangeland health. Along with more than $301 million provided to the 
Department of the Interior, the 2007 budget provides a total of nearly 
$913 million to implement the Healthy Forests Restoration Act.
    Question. What will be the impact in other States with similar bark 
beetle problems?
    Answer. The fiscal year 2007 President's Budget includes $7 million 
in the Forest Health Management budget lines for the control of western 
bark beetles and another $7 million for southern pine beetle. Although 
this funding level is 47 percent less than the enacted budget for 
fiscal year 2006, it is 75 percent higher than the fiscal year 2006 
President's Budget. At the proposed funding level, management projects 
for bark beetles will be conducted on approximately 105,000 acres of 
Federal and Cooperative lands. Efforts to mitigate beetle-caused 
mortality will include using environmentally sensitive strategies such 
as pheromones and preventive thinning of stands to reduce risk before 
an outbreak occurs.
    Question. Chief you were kind enough to join me in Montana for a 
field hearing back in December regarding forest planning in Region 1. 
As you know, we've got 5 forest plans covering over 11 million acres in 
Montana that are being revised.
    We received a lot of comments from folks during that hearing that 
were concerned about public access and motorized use being further 
limited on the forests in Montana. Can you tell us how you are taking 
these concerns of citizens into account in drafting these new plans?
    Answer. The five land management plans (LMPs) currently being 
revised in Montana are on the Beaverhead-Deerlodge, Bitterroot, Lolo, 
Flathead, and Kootenai National Forests (NFs).
    The Beaverhead-Deerlodge NF's comment period on its draft plan and 
environmental impact statement (EIS) ended on October 31, 2005. The 
Forest is analyzing those comments and preparing a final plan and EIS. 
The Forest continues to work with all interest groups, including both 
summer and winter recreation groups to address their concerns. The 
final plan will identify areas where motorized use is emphasized and 
areas where motorized use is not appropriate. As a result of public 
comment throughout the plan revision process, the Forest has identified 
several areas where motorized trails could be connected to form loops 
and facilities could be constructed to accommodate motorized use. The 
Ecosystem Research Group (ERG) has provided the Forest with a 
``collaborative alternative'' to consider when preparing the final 
plan. The Forest continues to work with ERG to determine how best to 
consider that alternative in the final plan.
    The planning teams on the Bitterroot, Lolo, Flathead, and Kootenai 
NFs are in the final stages of developing proposed LMPs. These proposed 
LMPs will be released for a 90-day comment period. Public input from a 
series of public and collaborative meetings is incorporated into the 
draft LMPs. These draft LMPs will be released for a 90-day comment 
period.
    As a result of this extensive public input, the Bitterroot, 
Flathead, and Lolo NFs have added motorized loop routes as a component 
of desired conditions in their LMPs. The Bitterroot and Lolo NFs 
identified backcountry areas (labeled ``Management Area 2.2'' within 
the LMP) as generally suitable for limited motorized use. These LMPs 
also identify desired conditions for motorized and non-motorized 
activities. The public will be able to comment on these proposed LMPs 
during the 90-day comment period. The Forests intend to convene a 
series of public meetings during this comment period to explain the 
proposed LMPs.
    The Kootenai NF has developed several management areas to address 
comments associated with travel management. The Forest will continue 
working with user groups to identify areas best suited for motorized 
use.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

    Question. The 2004 fire season was the worst Alaska has ever seen. 
Alaska had 703 fires and over 6.6 million acres burned. Alaska's 2005 
fire season was almost as destructive. 624 fires and close to 5 million 
acres burned. Though these numbers are staggering, the Forest Service's 
fiscal year 2007 budget calls for sharp reductions in Alaska's 
allocation for programs that play a key role in implementation of the 
National Fire Plan and other programs focused on fire prevention and 
hazard mitigation. More specifically, Alaska's fiscal year 2007 
allocation for State & Private Forestry funds is a 17 percent reduction 
from 2006. Alaska's fiscal year 2007 allocation for Wildland Fire 
Management funds is decreased by 47 percent from 2006, including a 76.5 
percent reduction in State Fire Assistance Program funding.
    Given the number and acreage of fires in Alaska each fire season, 
how does the Forest Service justify such a drastic reduction in funds 
for fire management purposes? Do you feel the Forest Service budget has 
adequate resources for this upcoming fire season?
    Answer. Fiscal year 2006 funding provides the Forest Service with 
adequate resources for this upcoming fire season. The fiscal year 2007 
budget reflects the President's commitment to providing the critical 
resources needed for our Nation's highest priorities: fighting the war 
on terror, strengthening our homeland defenses, and sustaining the 
momentum of our economic recovery. The fiscal year 2007 budget aligns 
with the national priorities. The USDA and the DOI worked together 
closely to ensure the National Fire Plan programs would be funded at a 
level that would allow both departments to meet their planned readiness 
level.
    Question. The fiscal year 2007 budget for the Forest Service 
includes a proposal to extend the Secure Rural Schools and Community 
Self-Determination Act by selling 200,000 acres of National Forest 
System land to offset the act's $800 million cost. Sales receipts would 
go to States impacted by lower timber sales on Federal lands and 
payments would decrease and phase-out over 5 years. Justification for 
the proposal is that sale of national forest land and resulting 
development of the land would increase State and local tax base and 
reduce the need for Federal funds. The proposal has also been justified 
on grounds that regular receipt-sharing payments are sufficient to meet 
community needs. Secure Rural Schools Act payments are vital to 
communities in Southeast Alaska where the Tongass National Forest 
covers over 90 percent of the land and timber sale volume continues to 
be unstable and very low.
    How does the Forest Service justify reducing and eventually phasing 
out Secure Rural Schools Act payments to States such as Alaska where 
very little or no national forest land acreage is available for sale 
and regular receipt-sharing payments are low?
    Answer. The Secure Rural Schools and Community Self-Determination 
Act of 2000 addresses the decline in revenue from timber harvest in 
recent years received on Federal land, that have historically been 
shared with counties under the 25 percent Act of 1908. The purpose of 
the act is to stabilize payments to counties to help support roads and 
schools, provide projects that enhance forest ecosystem health and 
provide employment opportunities, and improve cooperative relationships 
among Federal land management agencies and those who use and care about 
the lands the agencies manage.
    For each year 2001-2006, the law allows States to receive a payment 
from the Federal Government based on the State's average of its top 3 
years of payments from national forest and BLM receipts from Federal 
lands from the period of 1986-1999.
    If the Secure Rural Schools existing legislation is not 
reauthorized, barring any other changes in authorizations, the States 
will continue to receive their share of 25 percent fund payments under 
the 1908 act. Funds are distributed to eligible States that received a 
25-percent payment during the eligibility period based on an amount 
equal to the average of the three highest 25-percent payments and 
safety net payments made to that eligible State for the period between 
1986-1999.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig

    Question. My first question is in regard to the new travel 
management rule. Does the Forest Service have an estimated number of 
miles identified for road and trail closers?
    Answer. The travel management rule itself does not open or close 
any road, trail, or area. Instead, the rule establishes national 
guidance for making designation decisions at the local level. Each 
national forest or grassland will assess its current travel management 
direction, involve the public, and determine whether changes are 
needed. Designations will be made with public involvement; coordination 
with Federal, State, county, tribal, and local governmental entities; 
and appropriate environmental analysis and documentation. The miles of 
road or trail that will be added to the forest transportation system or 
be closed will depend on the results of planning at the local level 
over the next 4 years.
    Question. Additionally, with the new rule, how does the Forest 
Service plan on funding such a large task with declining budgets?
    Answer. The Forest Service estimates that it will spend between $15 
and $35 million per year over the next 4 years on travel planning. 
These obligations will occur within existing and available budget 
authority, so no new funding is necessary. Travel planning serves 
multiple purposes, and funding may be derived from a variety of Forest 
Service appropriations depending on the primary purposes served at the 
local level. Among the principal budget line items associated with 
travel planning are Roads, Trails, Recreation, Heritage and Wilderness, 
Wildlife and Fisheries Habitat Management, and Vegetation and Watershed 
Management.
    Question. Along with that and new wilderness proposal areas, does 
the Forest Service agree that those agency-designated areas should 
remain accessible by both motorized and non-motorized recreationists?
    Answer. In accordance with agency policy, a roadless area being 
evaluated and ultimately recommended for wilderness or wilderness study 
is not available for any use or activity that may reduce the area's 
wilderness potential. Activities currently permitted may continue, 
pending designation, if the activities do not compromise wilderness 
values of the roadless area. This direction gives the local line 
officer discretion in evaluating such activities and determining 
whether or not to allow them to continue.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

    Question. As I understand it, the President's Budget includes a $30 
million increase in the forest products line item, but that entire $30 
million increase plus an additional $11 million of forest products 
funding would go to the Pacific Northwest as increased funding for the 
Northwest Forest Plan.
    My question is this--will the increased funding for the Northwest 
Forest Plan be at the expense of dealing with the bark beetle problems 
in Colorado or is there room in this proposed budget to get more timber 
sale money to the national forests in Colorado to address the bark 
beetle problems?
    Answer. The agency is committed to funding all regions at similar 
levels to fiscal year 2006 through a combination of Hazardous Fuels and 
Forest Products funding. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation. The agency determines where Forest Products 
program funding should be allocated to best support forest management 
programs, while using Hazardous Fuels funding to address the highest 
priority fuels reduction needs.
    Question. The proposed Forest Service budget includes an $11 
million increase in Hazardous Fuels funding. I strongly support 
spending money proactively on hazardous fuels projects if it will 
reduce the risk of forest fires and the associated risks to watersheds, 
communities, and residents. However, I'm concerned that some of the 
acres treated aren't the highest priority acres.
    From your reviews of the hazardous fuels program, is there room to 
improve what's being done on-the-ground, and how are you working toward 
that objective?
    Answer. Each year our national fuels treatment program priorities 
are developed in cooperation with the Department of the Interior and 
transmitted to regions, forests, and districts. That guidance shapes 
prioritization decisions at the individual national forests and ranger 
districts, where fuels treatments are evaluated on a site-specific 
basis. In addition, other resource treatments for wildlife habitat 
improvement, watershed, vegetation management, and recreation are also 
being designed to address fuels treatment and vegetation management 
needs. Combining objectives can help address both fuel reduction and 
condition class improvement goals. The timing and placement of these 
treatments on the landscape are evaluated with our partners at other 
Federal agencies and at the State and local level. These partnerships 
are very well established and successful in some areas, and are still 
being formed in other locations.
    We are also improving the prioritization process and performance 
measures to focus on the right acres, at the right time, and in the 
right place. Wildfires do not recognize property boundaries or agency 
administration. For hazardous fuels treatments to be most effective, 
they must be designed to change the behavior of a wildfire. To fully 
protect communities and firefighters, private landowners in the 
wildland-urban interface must also take responsibility for reduction of 
hazardous fuels on their lands and around their homes and structures. 
The National Fuels funds allocation and prioritization methodology 
evaluates Regional fuels treatment needs using measures of efficiency, 
effectiveness, consequences, restoration opportunities and wildfire 
risk. These measures are evaluated and ranked by an interdisciplinary 
team with results presented geospatially to guide the National 
Headquarters Office allocation of hazardous fuels funding to the 
Regions.
    Question. In addition, how successful has the Forest Service been 
at integrating multiple budget line items, for instance hazardous 
fuels, forest health, and timber sales funding, into individual 
projects and getting ``more bang for your buck?''
    Answer. Multiple budget line items are being effectively used to 
address forest health, watershed health, and community protection 
issues, while also contributing to local economies and maintaining 
local industry infrastructure. The Forest Service collaborates with 
other Federal agencies, as well as State, local, and tribal partners 
and the general public in the creation of Community Wildfire Protection 
Plans, to prioritize treatments of hazardous fuels at the wildland-
urban interface. The Forest Service will treat more than 1.5 million 
acres within the wildland-urban interface during fiscal year 2007. The 
allocation of various budget line items, such as Forest Products, 
Vegetation and Watershed Management, Forest Health, and Hazardous Fuels 
take into consideration these resource and community concerns. Forest 
health continues to be a priority for the administration, and the 
Forest Service is committed to addressing the issue across the Nation.
    Question. Colorado alone has 800,000 acres of NEPA ready land that 
could be treated if funding were available. How effective a use of 
limited Forest Service dollars is it to fully fund the Pacific 
Northwest Forest Plan when that area of the country has the highest 
rate of lawsuits and therefore dollars spent often don't result in 
implementation?
    It seems to me that a more worthwhile use of funding would be to 
re-apportion a fair amount of funding to Colorado to reduce the fire 
danger this year rather than send it to an uncertain fate in the 
Pacific Northwest.
    Answer. The administration is committed to fully funding the 
Northwest Forest Plan. Cost efficiency is not the only consideration in 
allocating the Forest Products line item. For example, increasing 
timber sales increases the amount of receipts shared with the States 
and reduces outlays from the Treasury for payments authorized for the 
Secure Rural Schools and Community Self-Determination Act. The Forest 
Products line item is an important source of funding in meeting 
resource needs, addressing forest health and community protection 
issues, contributing to local economies, and maintaining local industry 
infrastructure. The allocation of the Forest Products line item takes 
into consideration these resource and community concerns and the 
allocation of other line items. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation.
    The additional funding for the Northwest Forest Plan will allow the 
agency to offer 800 MMBF of timber volume, improve over 3,900 acres of 
terrestrial wildlife habitat and 120 miles of fisheries habitat, treat 
hazardous fuels in the wildland-urban interface and municipal 
watersheds, and address reforestation needs of recent large forest 
fires. The USDA Forest Service strongly supports the timber sale 
program on the Colorado national forests, and the agency is committed 
to allocating a combination of Forest Products and Hazardous Fuels 
funding to each region that is not less than the fiscal year 2006 
allocation. This is necessary to ensure that critical vegetation 
management program continuity is maintained. The Forest Service 
determines within each region where the Forest Products funding should 
be allocated to best support forest management programs, while using 
Hazardous Fuels funding to address the highest priority fuel reduction 
needs.
    Question. Can you provide me with the percentage and dollar amounts 
of the total funding that was appropriated for the purposes of Fire 
Preparedness and Fire Suppression that actually ``reach the ground?'' 
By ``reach the ground,'' I mean the amount that is actually used at the 
lowest level to fund temporary hires, permanent positions, purchase 
equipment, let contracts, etc to deal with the upcoming fire season.
    Please provide nation-wide information, as well as numbers 
specifically relating to my home State of Colorado.
    Answer. Fire Preparedness.--The Forest Service has $666 million of 
Appropriated Fire Preparedness funds for fiscal year 2006. Fifty five 
percent or $369 million will be available to fund firefighting 
capability and operations including temporary hires, permanent 
positions, purchase equipment, dispatchers, and contracting resources.
    Within the State of Colorado, the Forest Service will spend 
approximately fifty percent or $13 million on Preparedness capability 
and operations.
    Fire Suppression.--The Forest Service has $690 million of 
Appropriated Fire Suppression funds for fiscal year 2006. Seventy 
percent, or $481 million, are available to fund temporary hires, 
permanent positions, purchase equipment, contracts, etc. for the 
upcoming fire season. The funds are available on an as-needed basis. 
Through April 30, 2006, the Forest Service has expended approximately 
$2.6 million in Colorado.
    Question. Forest Service Region 2, where Colorado is located, has 
more visitors to its national forests than any other region. Fully 32.5 
million people visited there last year. This is a good thing because we 
want people to come, to get out, and to enjoy the great resources that 
are our forests. What is confusing though is that while the number of 
forest visitors is the highest the recreation funding it receives is 
not. In fact when you look at recreation funding, Region 2 gets less 
funding per visitor than any other region. Could you explain to me why 
this is the case?
    Answer. The Forest Service continues to direct available resources 
towards meeting long-term strategic goals and providing increased 
support to programs that advance sustainable resource management, which 
includes providing outdoor recreational opportunities. Available 
recreation and trails program resources continue to be focused on 
efforts that maximize program delivery, emphasize delivery of services 
to the public, and strengthen partnerships which are vital to 
accomplishing stewardship work on the ground. The Rocky Mountain Region 
(Region 2) has taken several steps to reduce costs and improve the 
value of services to the taxpayer, including implementing the 
recreation sites facility master planning process, pursuing grants and 
matching funds, and actively engaging our partners in the management of 
the national forests. Given overall budgetary constraints, Region 2 
will be working with other regions to similarly improve efficiencies.
    Question. I'm interested in ways the Forest Service can reduce 
costs of management, and thereby be more efficient with the funds that 
we in Congress appropriate. The Healthy Forests Restoration Act 
contained a pre-decisional objection process and a streamlined judicial 
review process. How well are those working from the perspective of 
allowing the Forest Service to more effectively address or resolve 
conflicts, and how well are those working from the perspective of 
reducing costs?
    Answer. The project level pre-decisional objection process used for 
hazardous fuels reduction projects authorized under the provisions of 
the Healthy Forests Restoration Act of 2003 encourages upfront 
participation by the public while preserving the opportunity to 
challenge a project and influence a decision before it is made. A pre-
decisional process serves the public by encouraging efforts to resolve 
differences collaboratively, before a decision document is signed, 
rather than by addressing issues after a decision is made. Furthermore, 
better resource decisions with fewer legal challenges could result if 
interested citizens and organizations work with the agency to resolve 
concerns before a decision is made. The Forest Service is beginning to 
monitor planning and implementation of Healthy Forests Restoration Act 
projects along with all other projects through its new Planning, 
Appeals, and Litigation System (PALS) database. Fiscal year 2005 was 
the first full year of implementation for the planning portion of this 
tracking system. As data for fiscal year 2005 are still being reviewed, 
no statistical conclusions concerning efficiency may yet be made. The 
appeals and litigation portions of this tracking system are still being 
developed.
    Question. How much does the USFS anticipate the Travel Management: 
Designated Routes and Areas for Motor Vehicle Use to cost to fully 
implement nationwide? Specifically, from what budgets within the USFS 
will funds be allocated in order to implement the Travel Management: 
Designated Routes and Areas for Motor Vehicle Use?
    Answer. The Forest Service estimates that it will spend between $15 
and $35 million per year over the next 4 years on travel planning. 
These obligations will occur within existing and available budget 
authority, so no new funding is necessary. Travel planning serves 
multiple purposes, and funding may be derived from a variety of Forest 
Service appropriations depending on the primary purposes served at the 
local level. Among the principal budget line items associated with 
travel planning are Roads, Trails, Recreation, Heritage and Wilderness, 
Wildlife and Fisheries Habitat Management, and Vegetation and Watershed 
Management.
    Question. Currently, how many individual forests and/or forest 
districts functionally meet the requirements of the Travel Management: 
Designated Routes and Areas for Motor Vehicle Use and will have to only 
take minor actions (for example provide OHV travel maps) to be in full 
compliance?
    Answer. The following units, comprising approximately 42 million 
acres, or 22 percent of the National Forest System, report that they 
already manage motor vehicles on a designated routes basis. These units 
will require relatively less in the way of new planning and decision-
making to implement the travel management rule than those forests that 
are open to unregulated cross-country motor vehicle use.
Rocky Mountain Region (Region 2)
    Arapaho-Roosevelt National Forest--Sulphur and Canyon Lakes Ranger 
Districts and Pawnee National Grassland; Grand Mesa National Forest; 
Uncompahgre National Forest; Routt National Forest; and Shoshone 
National Forest.
Southwestern Region (Region 3)
    Coronado National Forest; Lincoln National Forest; Prescott 
National Forest; and Tonto National Forest--Cave Creek, Globe, Mesa, 
and Tonto Basin Ranger Districts.
Intermountain Region (Region 4)
    Boise National Forest--Lowman and Cascade Ranger Districts; 
Bridger-Teton National Forest--Pinedale Ranger District; Caribou 
National Forest; Manti-La Sal National Forest--Ferron, Monticello, 
Price, and Sanpete Ranger Districts; Humboldt-Toiyabe National Forest--
Carson Ranger District and Spring Mountains; National Recreation Area; 
Sawtooth National Forest--Sawtooth National Recreation Area; Uinta 
National Forest; and Wasatch-Cache National Forest.
Pacific Southwest Region (Region 5)
    Los Padres National Forest; Lake Tahoe Basin Management Unit; 
Sequoia National Forest--Tule River, Hot Springs, and Hume Lake Ranger 
Districts; and Stanislaus National Forest--Summit Ranger District.
Pacific Northwest Region (Region 6)
    Umatilla National Forest--North Fork John Day, Pomeroy, and Walla 
Walla Ranger Districts.
Southern Region (Region 8)
    Caribbean National Forest; Cherokee National Forest; Chattahoochee-
Oconee National Forests; Daniel Boone National Forest; Francis Marion & 
Sumter National Forests; National Forests in Alabama; National Forests 
in North Carolina; Ozark-St. Francis National Forests; George 
Washington and Jefferson National Forests; Land Between the Lakes 
National Recreation Area; Caddo National Grassland; Lyndon B. Johnson 
National Grassland; Sam Houston National Forest; and Delta National 
Forest.
Eastern Region (Region 9)
    Chequamegon-Nicolet National Forests; Finger Lakes National Forest; 
Hiawatha National Forest; Hoosier National Forest; Mark Twain National 
Forest; Midewin National Tallgrass Prairie; Monongahela National 
Forest; Shawnee National Forest; Wayne National Forest; and White 
Mountain National Forest.
Alaska Region (Region 10)
    Chugach National Forest.
    Question. We have several mills in western Colorado that 
manufacture aspen paneling and aspen excelsior. They depend on the 
national forests for aspen timber sales. We have a lot of aspen on the 
national forests in western Colorado, and it's important to manage our 
aspen stands. For some reason the Forest Service hasn't been selling as 
many aspen timber sales the last couple years. These small family owned 
businesses are on the edge of not surviving. I don't think the Forest 
Service can afford to lose any more of the forest products companies 
that help you manage the national forests. These companies are 
important to western Colorado and they're important to me. Can you tell 
me if there is sufficient funding in the proposed fiscal year 2007 
budget to fund aspen timber sales in Colorado?
    Answer. There is sufficient funding for the aspen program. There 
are three mills that primarily use aspen--Delta Timber in Delta, CO; 
Western Excelsior in Mancos, CO; and Aspen Wall Wood in Dolores, CO. 
Most of the commercial aspen the agency sells comes from the San Juan, 
White River, and Grand Mesa, Uncompahgre, and Gunnison National 
Forests.
    The aspen sold in Region 2 over the last few years has been 2.6 
MMBF in fiscal year 2005, 0.7 MMBF in fiscal year 2004, and 4.8 MMBF in 
fiscal year 2003. From those forests, we plan to offer approximately 10 
MMBF in fiscal year 2006. For fiscal years 2007-2010, our planned offer 
will vary from 5 to 9 MMBF per year, but could increase further to 
respond to the aspen mortality now occurring primarily on the San Juan 
National Forest.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

    Question. In fiscal year 2006, I continued $350,000 to fund leafy 
spurge activities on the Dakota Prairie Grasslands.
    What activities were funded? Which organizations received funding?
    Answer. The Dakota Prairie National Grassland is currently working 
on agreements with the organizations listed below to receive earmark 
funding for leafy spurge control, including herbicide treatment, 
release of biological control agents and mapping of infestations. The 
agreements are based on the available earmarked funds. The Dakota 
Prairie Grassland spends additional program dollars to inventory 
infestations, monitor prior treatments and conduct environmental 
analysis for additional treatments, but these funds are not reflected 
in the agreements or distributed to these organizations.
    Billings County; Golden Valley County; Grand River Grazing 
Association; Little Missouri Grazing Association; McKenzie County 
Grazing Association; Ransom County; Richland County; Sheyenne Valley 
Grazing Association; and Slope County.
    Question. What is the total number of acres that were treated in 
fiscal year 2006?
    Answer. Although the field work has not been completed, we expect 
accomplishments to exceed 15,000 acres in fiscal year 2006. The 
Sheyenne Valley Grazing Association alone is planning to conduct 
herbicide treatments on 13,000 acres and graze goats on an additional 
2,000 acres.
    Question. Your budget justification doesn't specify any set amount 
for leafy spurge control on the grasslands. I want to make sure this 
work is continued.
    How much funding in the President's Budget is available in total 
for leafy spurge eradication on the Dakota Prairie Grasslands?
    Answer. The fiscal year 2007 President's Budget, relative to the 
fiscal year 2006 enacted budget, increases the Manage Noxious Weed and 
Invasive Plants activity by $1,276,000 (6 percent) and increases 
targeted outputs by 34,902 acres (43 percent). This increased program 
emphasis will provide additional funds for high priority treatments; 
however, unit-specific allocations have not been determined at this 
time.
    Question. Does your budget continue my $350,000 earmark for 
cooperative work with grazing associations and county weed boards?
    Answer. The fiscal year 2007 President's Budget does not include 
the earmark provided in fiscal year 2006. However, the unit will 
continue to work with the grazing associations and county weed boards 
to identify high priority treatment areas and to implement treatments 
through cost-effective cooperative agreements. The planned completion 
of a noxious weed treatment environmental analysis in fiscal year 2006 
will also increase the unit's flexibility to implement efficient 
treatment options, including continuation of existing partnerships.
    Question. GAO has now ruled twice that the Forest Service 
improperly awarded a $100 million contract for its National Recreation 
Reservation System and directed the agency to recompete the contract. 
This is after the agency attempted to initially sole-source the 
contract. The Forest Service has indicated that it will not abide by 
GAO's second determination, despite the fact that the Comptroller 
General again found significant errors in the contracting process and 
told the agency to recompete the contract.
    How often in the past 10 fiscal years has the U.S. Forest Service 
sought to have the Secretary of Agriculture grant a waiver under the 
Competition in Contracting Act to sole-source a contract? Please 
provide details on any such occurrences.
    Answer. The Forest Service competitively sources contracts whenever 
possible, using the Secretary's waiver under the Competition in 
Contracting Act to enable a sole-source acquisition only once in the 
last 10 fiscal years, and that was in connection with the intent to 
amend the existing national recreation reservation system contract with 
Reserve America in 2003 to provide for the addition of the National 
Park Service recreation sites to be incorporated into that contract. On 
June 24, 2003, USDA Secretary Ann Veneman approved the determination, 
in accordance with Federal Acquisition Regulation 6.302-7, that it was 
in the public interest to modify, on a noncompetitive basis, the 
Reserve America, Inc. contract to integrate a portion of the Department 
of the Interior recreation reservation requirements with those of the 
USDA Forest Service and the U.S. Army Corps of Engineers. This action 
was taken to implement direction from the OMB Director in 2002 to the 
Department Secretaries of USDA and DOI and the Director of the USACE to 
consolidate various recreation reservation systems into one system. The 
National Park Service units incorporated into the Reserve America 
contract under this action were those which were not covered under an 
existing DOI contract, and in anticipation of the award of an 
integrated national recreation reservation system contract in 2005. 
This action was challenged in the U.S. Court of Claims and was upheld.
    Question. How often in the past 10 fiscal years has the U.S. Forest 
Service failed to abide by a procurement recommendation by the GAO? 
Please provide details of any such occurrence.
    Answer. The current determination not to follow the recommendation 
of GAO concerning the protest of the award of the integrated national 
recreation reservation system contract is the only instance where the 
Forest Service has decided not to follow the recommendation of the GAO.
    Question. Mr. Rey indicated that he thought it was ``not uncommon'' 
for other agencies not to follow GAO's recommendations on procurement 
cases. Please provide a list of any instances where other agencies have 
overridden GAO's recommendation on procurement cases in the last 10 
fiscal years?
    Answer. The Forest Service does not possess specific information 
regarding instances where other agencies have declined to follow GAO 
recommendations. However, it is known that there are other cases where 
Federal agencies have declined to follow GAO recommendations. Specific 
information on these cases would need to be obtained from the GAO.
    Question. Has the USDA Inspector General examined the NRRS 
contracting dispute? If not, why not?
    Answer. To our knowledge, the USDA Office of the Inspector General 
(OIG) has not reviewed, or has not otherwise been involved in review of 
the source selection process or litigation concerning award of the 
national recreation reservation system contract. The dispute and 
adjudication venues in the Federal acquisition process are well 
defined, and those venues do not include the OIG. No whistleblower 
complaint, allegations of fraud, waste, or abuse. or other allegation 
which may trigger an OIG investigation, has taken place. OIG determines 
which audits and reviews it conducts independently of the Forest 
Service, and we respectfully defer to them any questions regarding 
their work.
    Question. Your budget says the agency will have to spend $52 
million to cover the costs of pay inflation in the fiscal year 2007 
budget. That doesn't even include funding for non-pay inflation for 
things like rent and utilities.
    What is the total amount of unfunded fixed costs that will absorb 
in fiscal year 2007?
    Answer. Forest Service costs for the 2.3 percent pay increase would 
be about $52 million. In addition, non-pay costs assuming a 2.3 percent 
inflation factor would be about $41 million--for a total of $93 
million.
    Question. What is the total amount of fixed costs that you estimate 
that the Forest Service has been forced to absorb over the past five 
years?
    Answer. The cost of pay raises between fiscal year 2003 and fiscal 
year 2007 (inclusive) total $392 million. Non-pay inflation is 
estimated to be about $273 million. In order to address these costs, 
the Forest Service is currently conducting organizational efficiency 
studies and will have specific recommendations in the fiscal year 2008 
President's Budget.
    Question. Your budget claims $39 million in saving from ``program 
efficiencies'' from business restructuring and other reforms.
    How are you tracking savings to make sure they are true 
``efficiencies'' and not cuts to programs?
    Answer. Performance Work Statements (PWS) for A-76 competitions are 
crafted to ensure the full program is included within the scope. Actual 
performance is measured against the PWS requirements.
    Cost reductions for the business process re-engineering efforts are 
tracked in the financial system against a baseline of costs included in 
the respective business case. The business cases outlined how the 
programs would be structured and implemented under a revised structure. 
Each program area has service-level agreements to help ensure the 
quantity and quality of service meets needs outlined by the agency.
    Question. Your budget contains a 30 percent cut in State fire 
assistance. States like North Dakota depend heavily on Federal 
resources to help them train and equip their fire fighters--fire 
fighters that are often first responders to thousands of fires each 
year on Federal land.
    How do you expect State and local governments make up the 
difference of these cuts?
    Answer. The Forest Service supports efforts to improve firefighting 
readiness, and recognizes the primacy of State and local governments in 
providing these essential services to their citizens. In additional to 
Forest Service financial assistance, the Forest Service will continue 
to work with local communities and the State foresters with an emphasis 
on community wildfire protection planning and coordination on FEMA 
hazard mitigation plans. Hazardous fuels treatments in the critical 
wildland-urban interface and building fire preparedness at the State 
and local level remain priorities.
    Question. Since State and local firefighters are often the first 
responders to Federal lands, are we shortchanging our own readiness?
    Answer. The implications of reduced levels of funding in State Fire 
Assistance will vary from State to State. Generally, depending on the 
capability of each State, there may be less overall funding for 
preparedness at the State and local level to provide initial attack and 
extended attack assistance to Federal firefighting resources on Federal 
fires. Depending on the funding capabilities of the States and local 
communities, hazardous fuel treatments on the State and private 
portions of the wildland-urban interface may be reduced from prior 
years. Some of that reduction may be offset by proposed increases in 
hazardous fuel accomplishments on national forest acres in the 
wildland-urban interface.
    Question. Though you list improving forest health as one of your 
top activities, your budget cuts total Forest Health grants by 23 
percent. The budget includes a $7 million cut to programs that combat 
gypsy moth infestation. You also have cuts to your gypsy moth research 
program.
    Why did you target the gypsy moth program for cuts? How many fewer 
acres will be treated with under this budget proposal, as compared to 
fiscal year 2006?
    Answer. When gypsy moths first move into an area, there are often 
significant impacts on both tree mortality and nuisance to humans. 
After many years, forests recover and introduced predators, parasites, 
and disease reduce gypsy moth population growth. The President's Budget 
redirects resources from insect suppression projects in the generally 
infested areas that have had gypsy moth for many years to projects for 
slowing the spread of the gypsy moth in the highest priority areas 
along the leading edge of the advancing infestation, as well as the 
eradication of new infestations outside the generally infested area. 
The President's budget also focuses resources on the detection and 
eradication of new invasive species such as the Sirex woodwasp, emerald 
ash borer, and others which pose serious threats to the Nation's rural 
and urban forests. Approximately 340,000 acres are planned for 
treatment to suppress, eradicate, and slow the spread of the gypsy moth 
in fiscal year 2007 compared to approximately 700,000 in fiscal year 
2006.
    Question. The Forest Service and Interior Department should be 
working together on an interagency approach to fight fires. But, it 
appears that no one is talking to each other when you plan your 
budgets. For example, you increase funding for fuels treatments by $10 
million, while DOI's is cut by the same amount; your volunteer fire 
assistance is flat, while they zero out their Rural fire program.
    Why are the Forest Service and DOI fire budgets inconsistent?
    Answer. The fiscal year 2007 budget reflects the President's 
commitment to providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening our 
homeland defenses, and sustaining the momentum of our economic 
recovery. The fiscal year 2007 budget aligns with the national 
priorities and recognizes differences in statutory authority provided 
to the agencies by the Congress. The USDA and the DOI worked together 
closely to ensure the National Fire Plan programs would be funded at a 
level that would allow both departments to meet their planned readiness 
level.
    Question. The Interior bill limits the agency's spending on 
``competitive sourcing and related activities.'' For fiscal year 2006, 
you have a $3 million limit. In fiscal year 2005, it was $2 million. 
You are also required to report to Congress on ``incremental costs'' 
that you are spending on these programs. As far as I know, Congress 
have not received a report that details your competitive sourcing costs 
for fiscal year 2005 as called for in the law, and we have no idea what 
you plan to spend in fiscal year 2006.
    How much did your agency spend on its competitive sourcing and 
related activities in fiscal year 2005? What amount do you plan to 
spend in fiscal year 2006?
    Answer. The Competitive Sourcing Program Office (CSPO) operational 
expenses for fiscal year 2005 were $1.2 million; key activities were 
post-study reviews of the process and decisions of the Forest Service 
A-76 competitions of Region 5 privatization of fleet maintenance and 
road maintenance. Feasibility study follow-up analysis and review of 
decisions are management activities similar to those required for 
oversight of any Forest Service program of work. In fiscal year 2005, 
the communications program feasibility study was performed and there 
were no A-76 competitive sourcing studies initiated or implemented.
    As defined in Public Law 109-54, in fiscal year 2006, the total 
CSPO budget is $1,615,863 which includes $1,042,976 allocated for 
contractor support; the CSPO is funded at $572,887. As feasibility 
studies are completed, additional funding may be added to implement the 
recommendations. Total funds expended in the program in fiscal year 
2006 will not exceed the $3 million cap.
    Question. How is the agency sure you are complying with the $3 
million spending limitation for fiscal year 2006? How are you tracking 
expenses?
    Answer. In order to comply with congressional direction and to 
better manage the USDA Forest Service Competitive Sourcing Program, the 
Competitive Sourcing Program Office instituted tracking by activity of 
all resources expended by its contractor support, including A-76 
competitions, feasibility studies, and the FAIR Act Inventory. As there 
were no new A-76 competitions in fiscal year 2005 and that the costs to 
monitor post competition activity for the purposes of OMB Circular No. 
A-76, the USDA Forest Service tracking of expenditures was compliant 
with Congressional direction in its intent and effectiveness.
    Question. You list a number of ``feasibility studies'' underway or 
planned in your budget justification, but you don't say how much these 
are costing.
    How much are you spending in feasibility studies in fiscal year 
2006? How much do you propose to spend in fiscal year 2007?
    Answer. Although the process for the USDA feasibility studies has 
been prescribed by the USDA OCFO, every function and organization is 
different, and therefore predicting a total cost with any reliability 
would not be possible. As the USDA Forest Service moves forward, all 
costs will be developed and captured in a proposed action plan subject 
to leadership approval. It is estimated that from $400,000 to $700,000 
will be spent on feasibility studies during fiscal year 2006. Spending 
in fiscal year 2007 will depend on the outcome of the fiscal year 2006 
studies.
    Question. Are you counting the costs of these studies toward the 
annual spending cap?
    Answer. As stewards of America's national forests and grasslands, 
it is essential for the Forest Service to regularly assess 
organizational effectiveness to ensure that finite resources are 
optimally applied to performance of the agency mission. Feasibility 
studies are a management tool specifically designed to objectively, 
comprehensively, and transparently identify opportunities for 
improvement in agency programs that could be achieved in a variety of 
ways. Forest Service feasibility studies are completed to determine if 
competitive source competitions should be carried out and are guided by 
specific agency contractors. Feasibility study contractor costs are 
tracked by the Competitive Sourcing Program Office and are counted 
under the congressionally mandated funding cap.
    Question. You claim $20 million in savings in fiscal year 2005 from 
your competitive sourcing activities.
    How are you tracking costs to make sure you can back those savings 
up?
    Answer. Contracting officers overseeing the various contracts are 
tracking the contractual costs of activities which have been outsourced 
to the private sector. This information is clearly tracked in the 
Integrated Acquisition System. Private sector contract costs are 
tracked through the routine contractor billing payment process as would 
occur with any private sector contract. The Competitive Sourcing 
Activities Savings and Performance Update (Section 647 Report) shows 
total accrued savings. This report is completed by comparing the actual 
performance costs with the projected costs of in-house performance.
    For Letters of Obligation (LOO) that went to Government Most 
Efficient Organizations (MEOs), the MEOs (pursuant to agency policy and 
the terms of the LOO) are required to report actual costs on a 
quarterly basis. Specific job codes are used to capture these costs as 
per agency policy. To date, the Forest Service only has one MEO, the 
Information Solutions Organization (ISO).
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

    Question. The products that come off our Nation's forest are key to 
the economy of Wisconsin. My State is one of the leader's in forest and 
paper products. I am concerned that the administration is not taking 
the forest products industry seriously by failing to adequately fund 
research into improving paper and wood products technology. Since the 
mid-1990s the funding for the Forest Products Lab (FPL) in Madison has 
failed to keep pace with inflation, and it has not risen with increased 
budgets for forest research. The research conducted at FPL is key to 
maintaining our international competitiveness in paper and construction 
materials. The administration's decision to fund the FPL at $19.365 
million this year indicates that the Forest Service does not value the 
thousands of jobs in my State that depend on a vibrant and 
technologically advanced forest products industry.
    Why has the funding for the Forest Products Lab failed to keep pace 
with the growth in the Forest Research account?
    Answer. Growing needs in fire, watershed, and invasive species 
research emerged as agency priorities during the 1990s, and as a 
result, forest products utilization research did not grow as rapidly. 
Since fiscal year 2005, Forest Inventory and Analysis has received the 
highest priority for funding, leaving non-FIA research flat to 
declining in inflation-adjusted dollars. However, the future for 
research at the Forest Products Laboratory is bright. The FPL has 
refocused its program on the key areas critical to paper and wood 
related products with significant potential spin-off benefits for air, 
water, and fire technology development as well. Research into 
nanotechnology, advanced structures, advanced composites, bio-refining 
and small diameter tree utilization positions the FPL well for re-
emergence as the world's premier forest-based materials science 
facility. The President's fiscal year 2007 Budget provides an 
appropriate balance between Federal wood utilization research and that 
of the private sector.
    Question. Is it the administration's long-term vision that timber 
be harvested in the United States but processed elsewhere as the 
domestic industry becomes outdated?
    Answer. The administration supports sustainable forest management 
and use, as well as the need to improve the U.S. forest products 
industry through balanced public and private sector investments in 
research, new technologically advanced equipment, and up-to-date 
product processing facilities. The Forest Products Laboratory in 
Madison, WI, with funds provided by Congress, is continuing to provide 
important new technology to make the U.S. forest products industry 
globally competitive.
    Question. Why has the administration continued to underfund 
research into improved paper technology and safer, stronger, and more 
durable building materials?
    Answer. Paper and building materials technology has not been a high 
priority for Federal research in recent years. While these areas of 
research are considered important enough to continue to fund them in 
times of decreasing Federal discretionary funding, other research 
programs, such as Forest Inventory and Analysis, and fire and invasive 
species research have received focused increases.
    Question. Can we expect this funding trend to reverse itself before 
more Wisconsin jobs are lost?
    Answer. While Federal research investments can provide important 
long-term contributions to the national economy, market forces that are 
well beyond the control of the Forest Service will have a much greater 
impact on the level of private sector employment in any given State 
than a given year's modest increase or decrease of Forest Service 
research funding. Phase I of the $45 million FPL modernization 
initiative is in the fiscal year 2007 President's Budget. In addition, 
the FPL is building strong partnerships with industry in the 
development of alternative fuels that will help our Nation reduce its 
dependency on oil imports. These partnerships will certainly help build 
support internally and externally for the FPL.
    Question. How does the Forest Service intend to fund the 
implementation of the new Designated Routes and Areas off-highway 
vehicle rule?
    Answer. On November 9, 2005, the Department of Agriculture 
published a final travel management rule (36 CFR parts 212, 251, 261, 
and 295) governing the use of motor vehicles on National Forest System 
lands. The Forest Service believes that this rule represents a critical 
step in addressing unmanaged recreation, which is one of the four key 
threats to national forests and grasslands.
    The travel management rule requires each national forest to 
designate those roads, trails, and areas open to motor vehicle use by 
vehicle class and, if appropriate, by time of year. Decisions about 
which roads, trails, and areas should be designated will be made at the 
local level, with public participation and coordination with State, 
county, and tribal governments. The agency intends to complete route 
designation within the next 4 years. On most national forests, travel 
planning will require a substantial effort, including environmental 
analysis and documentation prepared in an open, collaborative process.
    Travel management is a key agency priority, and the Forest Service 
will prioritize its work and accomplish travel planning within the 
funds available. Travel management serves multiple purposes, and 
funding may be used from a variety of Forest Service appropriations 
depending on the primary purposes served at the local level.
    Question. Clearly the President's budget recommendation would 
severely decrease funding for the relevant Trails and Recreation 
budgets. What other sources of funding have been made available for the 
planning and implementation of this rule?
    Answer. The Forest Service estimates that it will spend between $15 
and $35 million per year over the next 4 years on travel planning. 
These obligations will occur within existing and available budget 
authority, so no new funding is necessary. Travel planning serves 
multiple purposes, and funding may be derived from a variety of Forest 
Service appropriations depending on the primary purposes served at the 
local level. Among the principal budget line items associated with 
travel planning are Roads; Trails; Recreation, Heritage and Wilderness; 
Wildlife and Fisheries Habitat Management; and Vegetation and Watershed 
Management.
    Question. I am also concerned about the Forest Service's effort to 
competitively source some of the jobs in the Service. I am concerned 
that the Service does not adequately track whether competitively 
sourcing jobs really saves the taxpayers money in the long run.
    How does the Forest Service track whether it saves money by 
competitively sourcing jobs?
    Answer. Contracting officers overseeing the various contracts are 
tracking the contractual costs of activities which have been outsourced 
to the private sector. This information is clearly tracked in the 
Integrated Acquisition System. Private sector contract costs are 
tracked through the routine contractor billing payment process as would 
occur with any private sector contract. The Competitive Sourcing 
Activities Savings and Performance Update (Section 647 Report) shows 
total accrued savings. This report is completed by comparing the actual 
performance costs with the projected costs of in-house performance.
    Question. Does the Service has a mechanism to allow government 
employees to compete for privately sourced jobs in the future, or is 
competitive sourcing a one way street?
    Answer. If a recompetition occurs for previous competed services 
under A-76 guidance and the recompetition is under A-76 guidance, then 
the agency could form a Most Efficient Organization (MEO) to compete, 
but this has not happened in the Forest Service to date.
    Question. How does the Service decide which jobs to compete, and 
how do you ensure that decisions that are inherently governmental are 
always made by government employees?
    Answer. At the USDA Forest Service, feasibility studies are used to 
determine what, if any, functional areas are likely to produce a 
significant performance or financial return on investment if submitted 
to further management analysis. The outcomes of such studies recommend 
whether or not to pursue a Business Process Reinvention (BPR), OMB 
Circular No. A-76 competition, some other business process improvement 
technique, or maintain the current status. The USDA Forest Service 
experience has shown that comprehensive feasibility studies offer the 
opportunity to identify holistic business units and the relationships 
they have with the entire organization. By looking at those commercial 
activities not yet examined in a collective fashion rather than piece 
by piece, the USDA Forest Service hopes to identify the best 
opportunities for improvement after all factors and impacts are 
considered. The feasibility studies, therefore, will take place over 
the period of the next several years, reviewing multiple program areas.
    Inherently governmental job activities that can only be performed 
by government employees are not competed under OMB Circular A-76.

                          SUBCOMMITTEE RECESS

    Senator Burns. The subcommittee will stand in recess to 
reconvene at 9:30 a.m., Thursday, March 30, in room SD-124, 
Dirksen Senate Office Building. At that time we will hear 
testimony from the Honorable Lynn Scarlett, Deputy Secretary, 
Department of the Interior.
    [Whereupon, at 10:35 a.m., Thursday, March 16, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
March 30.]

</pre></body></html>
